<html>
<title> - PASSENGER SCREENING R&D: RESPONDING TO PRESIDENT OBAMA'S CALL TO DEVELOP AND DEPLOY THE NEXT GENERATION OF SCREENING TECHNOLOGIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



   PASSENGER SCREENING R&D: RESPONDING TO PRESIDENT OBAMA'S CALL TO 
               DEVELOP AND DEPLOY THE NEXT GENERATION OF 
                         SCREENING TECHNOLOGIES

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 3, 2010

                               __________

                           Serial No. 111-74

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
54-617PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
JOHN GARAMENDI, California           MICHAEL T. McCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                      HON. DAVID WU, Oregon, Chair
DONNA F. EDWARDS, Maryland           ADRIAN SMITH, Nebraska
BEN R. LUJAN, New Mexico             JUDY BIGGERT, Illinois
PAUL D. TONKO, New York              W. TODD AKIN, Missouri
HARRY E. MITCHELL, Arizona           PAUL C. BROUN, Georgia
GARY C. PETERS, Michigan                 
JOHN GARAMENDI, California               
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 MIKE QUEAR Subcommittee Staff Director
        MEGHAN HOUSEWRIGHT Democratic Professional Staff Member
            TRAVIS HITE Democratic Professional Staff Member
            HOLLY LOGUE Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                  VICTORIA JOHNSTON Research Assistant









                            C O N T E N T S

                            February 3, 2010

                                                                   Page
Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative David Wu, Chairman, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................     6
    Written Statement............................................     7

Statement by Representative Adrian Smith, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........     7
    Written Statement............................................     8

Statement by Representative John Garamendi, Member, Subcommittee 
  on Technology and Innovation, Committee on Science and 
  Technology, U.S. House of Representatives......................    16

Statement by Representative Ben R. Lujan, Member, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................    42

                               Witnesses:

Mr. Bradley I. Buswell, Deputy Under Secretary, Science and 
  Technology Directorate, Department of Homeland Security
    Oral Statement...............................................     9
    Written Statement............................................    11
    Biography....................................................    16

Dr. Penrose C. Albright, Principal Associate Director for Global 
  Security, Lawrence Livermore National Laboratory
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    23

Dr. Bert Coursey, Program Manager, Coordinated National Security 
  Standards Program, National Institute of Standards And 
  Technology
    Oral Statement...............................................    23
    Written Statement............................................    25
    Biography....................................................    32

Dr. Sandra L. Hyland, Senior Principal Engineer, BAE Systems
    Oral Statement...............................................    32
    Written Statement............................................    35
    Biography....................................................    39

              Appendix: Answers to Post-Hearing Questions

Bradley I. Buswell, Deputy Under Secretary, Science and 
  Technology Directorate, Department of Homeland Security........    60

Dr. Penrose C. Albright, Principal Associate Director for Global 
  Security, Lawrence Livermore National Laboratory...............    65

Dr. Bert Coursey, Program Manager, Coordinated National Security 
  Standards Program, National Institute of Standards And 
  Technology.....................................................    69

Dr. Sandra L. Hyland, Senior Principal Engineer, BAE Systems.....    70

 
   PASSENGER SCREENING R&D: RESPONDING TO PRESIDENT OBAMA'S CALL TO 
    DEVELOP AND DEPLOY THE NEXT GENERATION OF SCREENING TECHNOLOGIES

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 2010

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:19 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. David Wu 
[Chairman of the Subcommittee] presiding.


                            hearing charter


                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

   Passenger Screening R&D: Responding to President Obama's Call to 
                         Develop and Deploy the

               Next Generation of Screening Technologies


                      wednesday, february 3, 2010


                             2:00-4:00 p.m.


                   2318 rayburn house office building

1. Purpose

    On Wednesday, February 3, 2010, the Subcommittee on 
Technology and Innovation will hold a hearing to review the 
airline passenger screening-related research, development, 
testing, and deployment activities of the Department of 
Homeland Security Science and Technology Directorate, the DHS 
University Centers of Excellence, the National Institute of 
Standards and Technology, and the Department of Energy National 
Laboratories.

2. Witnesses

        LMr. Brad Buswell is the Deputy Undersecretary of the 
        Science and Technology Directorate at the Department of 
        Homeland Security.

        LDr. Penrose Albright is the Principal Associate 
        Director for Global Security at the Lawrence Livermore 
        National Laboratory.

        LDr. Bert Coursey is the Program Manager of the 
        Coordinated National Security Standards Program at the 
        National Institute of Standards and Technology.

        LDr. Sandra Hyland is a Senior Principal Engineer at 
        BAE Systems.

3. Brief Overview

    In remarks made after the December 25th airplane bombing 
attempt, President Obama called for a review of the current 
screening systems and an expansion of the development of new 
technologies, stating:

        ``. . . we need to protect our airports--more baggage 
        screening, more passenger screening and more advanced 
        explosive detection capabilities, including those that 
        can improve our ability to detect the kind of explosive 
        used on Christmas.. . . And today, I'm directing that 
        the Department of Homeland Security take additional 
        steps, including:. . . working aggressively, in 
        cooperation with the Department of Energy and our 
        National Labs, to develop and deploy the next 
        generation of screening technologies.''

    The hearing will focus on the advancement of new passenger 
screening technologies, testing methods used to evaluate 
screening machines, and issues encountered during deployment of 
new screening systems.

4. Background

    The Transportation Security Administration (TSA) was 
created in 2001 to act as a centralized Federal authority to 
manage transportation security efforts in the United States. 
Moved to the Department of Homeland Security in 2006, TSA 
oversees security for highways, railroads, buses, mass transit 
systems, pipelines, ports and airports. The majority of TSA's 
work is in airport security, heading up screening efforts for 
passengers, checked luggage, and commercial cargo.
    The Transportation Security Laboratory (TSL) became part of 
the Department of Homeland Security Science and Technology 
Directorate (DHS S&T) in 2006 and provides support for TSA's 
mission through research, technology development, testing and 
evaluation, and technical support for deployed technologies. 
The bulk of TSL's work is the validation of explosive detection 
systems for passengers, luggage, and cargo. TSL tests explosive 
detection systems submitted by private industry vendors against 
specifications provided by TSA. Once systems pass the 
validation phase, they are placed on the Qualified Products 
List, indicating their efficacy and deployment readiness. In 
addition to TSL's validation activities, DHS S&T conducts 
research in imaging, particle physics, chemistry, material 
science, and advanced algorithms to develop enhanced explosive 
detection and mitigation capabilities.
    The National Explosives Engineering Sciences Security 
Center (NEXESS) was established by DHS S&T in 2006, combining 
expertise from three National Labs: Lawrence Livermore National 
Lab, Los Alamos National Lab, and Sandia National Lab. This 
center studies the performance characterization of homemade 
explosives (HME) and understanding vulnerability of aircraft to 
HME threats.
    The National Institute of Standards and Technology (NIST) 
is a non-regulatory agency of the Department of Commerce. 
Founded in 1901, NIST's mission is to promote U.S. innovation 
and industrial competitiveness by advancing measurement 
science, standards, and technology in ways that enhance 
economic security and improve our quality of life. MST supports 
the passenger screening mission of DHS S&T and TSA by 
developing measurement methods, standards reference materials, 
and new measurement technologies for passenger screening 
systems and reference data on explosives. This underlying 
information is critical to the development of new technologies 
that can detect and identify the current and future generations 
of explosives in the most efficient, safe, and reliable manner.

5. Issues and Concerns

    Does the current research and development portfolio of DHS 
S&T, its University Centers of Excellence and the National Labs 
adequately meet the needs of the TSA and fill existing 
capability gaps? How are priorities set for future research 
projects and do these priorities allow a balanced portfolio of 
basic research, applied research, and technology transition? 
TSA is responsible for setting research and technology 
priorities at TSL through the Capstone Integrated Product Team 
(IPT) process. There are thirteen IPTs in DHS S&T that provide 
input into the research plans based on their needs in the 
field. The Transportation Security IPT consists of 
representatives from agencies such as TSA, U.S. Coast Guard, 
Customs and Border Patrol and U.S. Secret Service. The IPT 
process is designed to meet the short-term needs of the 
customer and can lead to research that is improperly weighted 
toward flash-in-the-pan areas, such as liquid explosives. DHS 
S&T, its University Centers of Excellence, and the National 
Laboratories must coordinate a balanced research agenda that 
does not overly prescribe reactive research and maintains a 
proactive view of future passenger screening technologies.
    How does TSL develop the testing metrics and methods used 
to evaluate passenger screening technologies? What are the 
criteria for success and are technologies that are tested by 
TSL ready for deployment? If not, what additional efforts are 
necessary to bring technologies to full readiness? TSL takes 
technology specifications from TSA and evaluates passenger 
screening devices submitted by manufacturers. A successful 
evaluation places the device on the ``Qualified Products List'' 
indicating that it is suitable for use by TSA. Although most 
machines are evaluated successfully, there have been recent 
examples of missteps, such as the Explosive Trace Portals, or 
``puffers.'' These machines use puffs of air to dislodge trace 
amounts of explosive material from a passenger for detection. 
Despite passing qualification tests, the extensive pilot study 
was discontinued due to maintenance issues that arose when the 
puffers encountered dirt and humidity common in any airport 
environment. TSL, TSA, and N1ST must work together to ensure 
that testing metrics and methods not only reflect the minimum 
requirements for detection, safety, and usability, but can 
predict performance levels in a realistic environment.
    Does DHS S&T adequately consider the social science impact 
of new technologies (e.g. passenger convenience, safety, and 
public acceptance due to privacy) when developing new passenger 
screening devices? What research is being done to develop 
technologies or techniques that can mitigate concerns over 
privacy and safety? The newest, most accurate and most 
efficient passenger screening devices are useless if a 
passenger refuses to walk through them. TSA and DHS S&T must 
work to understand how these technologies will affect the 
people being screened and develop the devices from the start 
that appropriately minimize these concerns. Congress has 
recently seen legislation that bans the use of full-body 
scanners due to privacy concerns. While R&D is currently being 
done to develop technologies and techniques that minimize 
privacy concerns, it is reactive in nature to a problem that 
should have been anticipated.
    Chairman Wu. This hearing will now come to order. Good 
afternoon. I would like to welcome everyone to today's hearing 
on passenger screening research and development.
    The attempted bombing on a Christmas Day 2009 flight 
revealed gaps in our current airport security measures. We are 
grateful that this attempt was, like several other prior plots, 
unsuccessful. At the same time, these attacks have exposed 
vulnerabilities in current passenger screening technologies 
which must be addressed. Moving forward, we have to make sure 
that Department of Homeland Security [DHS] research is actively 
closing the gaps in our capabilities, producing security 
methods that the public will accept, and increasing our ability 
to keep Americans safe.
    In response to the failed Christmas Day attempt, President 
Obama called on the DHS to work with the Department of Energy 
[DOE] to develop and deploy the next generation of airport 
screening technologies. The purpose of today's hearing is to 
learn how DHS and other federal agencies will respond to the 
President's challenge to develop improved screening 
technologies.
    In addition, I am deeply troubled by the lack of attention 
DHS has paid in the past to important public acceptance issues. 
In 1997, about 13 years ago, the National Academy of Sciences 
[NAS] identified the need to pay more attention to public 
acceptance issues in the deployment of passenger screening 
technologies. Ten years later, in 2007, and I note that this is 
on either side of September 11, the NAS concluded again that 
this is important and also concluded that nothing had changed 
and these acceptance issues were still being ignored. So it is 
little wonder the deployment of body-scanning technologies has 
proven to be such a dramatic public failure. The relevant 
agencies did not do their homework and follow-up on the NAS 
recommendations in a serious way. Two reports, ten years apart, 
both ignored.
    Therefore, it concerns me that in the written testimony, 
other than passing comments on the privacy aspects of deploying 
airport screening technologies, the agencies before us today 
still do not have a robust and comprehensive plan for 
conducting and using effective public acceptance research, nor 
do they seem to have a plan to allow for input from crucial 
stakeholders, such as the public, airport officials, or the 
participating airlines. I want to assure everyone in this room 
that I am committed to ensuring that legitimate public concerns 
are adequately addressed in the development of any next-
generation airport screening technologies. Of course the 
screening process must protect the public, but it must be 
accepted by the public as well in order for it to work.
    Finally, I look forward to hearing how NIST [National 
Institute of Standards and Technology] and DHS will work 
together to address technical standards, accreditation and 
certification of these new technologies. Without these pieces 
in place, new technologies cannot be deployed effectively.
    I want to thank our witnesses for being here. We plan to 
act on your information.
    Chairman Wu. I now recognize our Ranking Member and 
colleague, Mr. Smith, for his opening statement.
    [The prepared statement of Chair Wu follows:]
                  Prepared Statement of Chair David Wu
    Good afternoon. I'd like to welcome everyone to today's hearing on 
passenger screening research and development.
    The attempted bombing on a Christmas Day 2009 flight revealed gaps 
in current airport security measures. We are all thankful that this 
attempt was, like several other previous plots, unsuccessful. At the 
same time, these attacks have exposed vulnerabilities in current 
passenger screening technologies that must be addressed. Moving 
forward, we must make sure that Department of Homeland Security 
research is actively closing the gaps in our capabilities, producing 
security methods that the public will accept, and increasing our 
ability to keep Americans safe.
    In response to the failed Christmas Day attempt, President Obama 
called on the Department of Homeland Security to work with the 
Department of Energy to develop and deploy the next generation of 
airport screening technologies. The purpose of today's hearing is to 
learn how DHS and other Federal agencies will respond to the 
president's challenge to develop improved screening technologies.
    In addition, I am troubled by the lack of attention DHS has paid in 
the past to public acceptance issues. In 1997, the National Academy of 
Sciences identified the need to pay more attention to public acceptance 
issues in the deployment of passenger screening technologies. Ten years 
later the Academies concluded that nothing had changed and these issues 
were,still ignored. No wonder the deployment of body-scanning 
technologies has proven to be such a public failure: the relevant 
agencies did not do their homework and follow-up on the Academies' 
recommendation in a serious way.
    Therefore, it concerns me that in the written testimony, other than 
passing comments on the privacy aspects of deploying airport screening 
technologies, the agencies before us today still do not have a robust 
and comprehensive plan for conducting and using effective public 
acceptance research. Nor do they seem to have a plan to allow for input 
from stakeholders, such as the public, airport officials, or airlines. 
I want to assure everyone in this room that I am committed to ensuring 
that legitimate public concerns are adequately addressed in the 
development of any next-generation airport screening technologies. Of 
course the screening process must protect the public, but it must be 
accepted by the public as well.
    Finally, I look forward to hearing how NIST and DHS will work 
together to address technical standards, accreditation, and 
certification of these new technologies. Without these pieces in place, 
new technologies cannot be deployed effectively.
    I want to thank our witnesses for being here. We plan to act on 
their guidance.

    Mr. Smith. Thank you, Chairman Wu, and thank you to our 
witnesses today for taking time for this hearing on developing 
and deploying the next generation of passenger screening 
technologies.
    The attempted Christmas Day bombing on Northwest Airlines 
flight 253 was yet another reminder that Al Qaida and its 
affiliates continue to pursue all means to attack innocent 
Americans and that we must continue using all means available 
to us, military, intelligence and technological, to remain 
ahead of this threat.
    I would also like to join the Chairman in welcoming today's 
distinguished panel. You are all at this forefront of this 
necessary research, and I look forward to learning more about 
the ongoing research and expected developments in the field as 
well as the potential positive and negative implications of 
this work for all Americans.
    While it is vital we continue seeking the most effective 
technological means to ensure Americans remain safe from 
attack, we must ensure that new technologies don't needlessly 
intrude on passengers' privacy. There are more than 700 million 
airline passenger boardings in the United States every year, 
and we must find the best possible means to ensure the 
interdiction of all those who would do us harm, while 
continuing to protect the privacy of the vast majority who are 
obviously innocent.
    One particular technology which has received widespread 
coverage in light of the Christmas incident and which I have 
heard concerns from numerous constituents about is whole-body 
scanners which allow airport screeners to see concealed 
contraband beneath passengers' clothes. While the desirability 
of this technology is understandable from a security 
standpoint, I look forward to learning how technological 
advances in other fields such as explosives detection and 
behavioral sciences will mitigate the need for intrusive 
scanners.
    Thank you again, Mr. Chairman. I yield back the balance of 
my time.
    [The prepared statement of Mr. Smith follows:]
           Prepared Statement of Representative Adrian Smith
    Thank you, Chairman Wu, for calling today's hearing on developing 
and deploying the next generation of passenger screening technologies. 
The attempted Christmas Day bombing of Northwest Airlines Flight 253 
was yet another reminder that Al Qaeda and its affiliates continue to 
pursue all means to attack innocent Americans, and that we must 
continue using all means available to us--military, intelligence, and 
technological--to remain ahead of this threat.
    I would also like to join the Chairman in welcoming today's 
distinguished panel. You all are at the forefront of this necessary 
research, and I look forward to learning more about ongoing research 
and expected developments in this field, as well as the potential 
positive and negative implications of this work for all Americans.
    While it is vital we continue seeking the most effective 
technological means to ensure Americans remain safe from attack, we 
must also ensure that new technologies don't needlessly intrude on 
passengers' privacy. There are more than 700 million airline passenger 
boardings in the United States every year, and we must find the best 
possible means to ensure the interdiction of all those who would do us 
harm while continuing to protect the privacy of the vast majority who 
are innocent.
    One particular technology which has received widespread coverage in 
light of the Christmas incident, and which I have heard concerns from 
numerous constituents about is whole-body scanners, which allow airport 
screeners to see concealed contraband underneath passengers' clothes. 
While the desirability of this technology is understandable from a 
security standpoint, I look forward to learning how technological 
advances in other fields such as explosives detection and behavioral 
sciences will mitigate the need for these intrusive scanners.
    Thank you, again, Mr. Chairman, and I yield back the balance of my 
time.

    Chairman Wu. Thank you very much, Mr. Smith. If there are 
other Members who wish to submit additional opening statements, 
your statements will be added to the record at this point.
    And now it is my pleasure to introduce our distinguished 
witnesses. First, Mr. Brad Buswell is the Deputy Undersecretary 
of the Science and Technology Directorate at the Department of 
Homeland Security [DHS S&T]. Dr. Bert Coursey is the Program 
Manager of the Coordinated National Security Standards Program 
at the National Institute of Standards and Technology. Dr. 
Sandra Hyland is the Senior Principal Engineer at BAE Systems, 
and Dr. Albright, for right now, we are going to skip your 
introduction until Governor Garamendi can come by.
    For each of the witnesses, you will have five minutes for 
your spoken testimony. Your written testimony will be included 
in the record in their entirety. And when you complete your 
testimony, we will begin with questions, and each Member will 
have five minutes to question the panel.
    Mr. Buswell, please begin.

  STATEMENT OF MR. BRADLEY I. BUSWELL, DEPUTY UNDERSECRETARY, 
  SCIENCE AND TECHNOLOGY DIRECTORATE, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Buswell. Thank you. Good afternoon, Chairman Wu, 
Congressman Smith, and distinguished Members of the Committee. 
It is my pleasure to be here. Once again, I commend you on the 
assembly of this panel, and I am humbled to be among them. I am 
honored to appear on behalf of the Department today to discuss 
with you this critical issue of airport passenger screening 
technology.
    I also want to thank the Committee and the staff for your 
continuing support of DHS S&T and our mission to enable and 
deliver technology to protect the American people.
    S&T is charged with providing technical support and tools 
to the major DHS operating components and our Nation's first 
responders, all of whom are on the front lines of homeland 
security every day. DHS S&T funds basic research and technology 
development, and supports the Department's major acquisitions 
through testing, evaluation and the development of standards.
    The Transportation Security Administration [TSA] has the 
lead role in DHS in defining the performance specifications of 
equipment that are installed at airports as part of their 
security measures. DHS S&T and TSA coordinate closely on 
research efforts and equipment test and evaluation to ensure 
the Department is investing in technologies that meet TSA's 
operational needs to protect the traveling public.
    As you are aware, Mr. Chairman, the Department's research 
and development priorities are primarily driven through our 
Capstone IPT [Integrated Product Teams] process. The customers 
and the stakeholders in this process play a lead role in 
informing DHS S&T's decision making about research and 
development investments. The customers chair the Capstone IPTs 
and establish their desired capability priorities based on 
their assessment of the risk in their respective mission areas. 
TSA leads the transportation security Capstone IPT, and based 
on their desires, our research priorities in aviation security 
have been, and continue to be, first to improve the capability 
of currently fielded screening equipment and procedures in the 
near term, and then in the longer term, develop and deploy new 
equipment and procedures to improve the security of air travel.
    All three of the DHS S&T portfolios, the Product 
Transition, which is near term, the Innovation portfolio which 
is led by the Homeland Security Advanced Research Projects 
Agency, or HSARPA, and the Basic Research portfolio participate 
in the IPT process. While the IPT members drive the selection 
of the transition products, the near-term needs, the expressed 
needs that arise from this process also inform the selection of 
projects in our Basic Research portfolio and similarly in our 
higher-risk/higher pay-off HSARPA portfolio.
    The Capstone IPT process is effective at identifying high-
priority technology needs, but we are constantly looking for 
better ways to meet those needs. Partnering with the National 
Laboratories, for example, is not new to us. Since its 
inception, DHS has worked in close collaboration with the DOE's 
National Laboratories in the pursuit of technology, supporting 
the operational needs of the Department.
    In response to the President's direction, we have taken a 
number of actions, one of which is to recently establish the 
Department of Homeland Security, the Department of Energy 
Aviation Security Enhancement Partnership as an Under Secretary 
level governance mechanism for managing the partnership between 
DHS and the DOE National Laboratories, specifically to advance 
technical solutions to key aviation security problems. This 
governance will allow us to extend and leverage this 
longstanding relationship with a focus on the utilization of 
the National Laboratories to deliver key advanced aviation 
security technologies and knowledge.
    As you mentioned, Mr. Chairman, development of effective 
passenger screening technology must meet legal and regulatory 
requirements and take into account other constraints which 
could limit our ability to deploy it. These constraints could 
include physical and performance constraints, such as footprint 
and through-put, and also more subjective measurements as you 
mentioned such as public acceptance. To that end, we work 
closely with TSA and other DHS offices such as the Chief 
Privacy Office and Office of Civil Rights and Civil Liberties 
to ensure the research we are doing has a clear path to 
deployment. To mitigate the risk of excessive travel or 
resistance to screening technologies, S&T uses the Community 
Perceptions of Technology panels that include informed experts 
from industry, public interest and community-oriented 
organizations to identify potential acceptance issues, and I 
would be delighted to discuss that more in the question-and-
answer period if you want to go into that further.
    We also play an important role in the test and evaluation 
of equipment in advance of major acquisition decisions. For 
aviation security technologies, this testing is led by the 
Transportation Security Laboratory [TSL] in Atlantic City. TSL 
conducts independent verification validation tests, and 
depending on the maturity and type of detection equipment does 
either certification, qualification, or laboratory assessments.
    Finally, a word about standards. As you said, Dr. Coursey 
is representing NIST here. He also happens to work on the same 
floor that I do in DHS S&T as he has been detailed to us to 
make sure we have a close cooperation with NIST for a number of 
years, and he has forgotten more about standards that I will 
ever know. So I will leave the standards discussion to him 
except to say that we work closely and we guide the NIST 
standards development for aviation security.
    Aviation security is obviously an activity of national 
importance, and as I mentioned, in response to the President's 
direction, we have initiated a new governance with the National 
Laboratories and have done a number of other things as well. 
Within the government, we are working with the Technology 
Support Working Group, the Department of Defense, the 
Department of Justice. We have academia engaged through our 
university-based Centers of Excellence. We are engaged with 
industry, have a broad agency announcement out to solicit 
technological solutions for countering this and other threats 
across the broad spectrum of Homeland Security. And 
additionally, we are engaged with our international partners to 
ensure we are capturing the best technologies possible and also 
to help improve their security capabilities.
    So in closing, thank you for your dedicated efforts to 
improve the safety of air travel to all Americans. I appreciate 
the opportunity to meet with you and look forward to your 
questions.
    [The prepared statement of Mr. Buswell follows:]
                Prepared Statement of Bradley I. Buswell

INTRODUCTION

    Good afternoon, Chairman Wu, Congressman Smith, and distinguished 
Members of the Subcommittee. I am honored to appear before you today on 
behalf of the Department of Homeland Security (DHS) to report on the 
Science and Technology Directorate's (S&T) research, development, test 
and evaluation (RDT&E) efforts relating to airport passenger screening 
technology.
Passenger Screening Capability Development
    S&T provides technical support and tools to the major DHS operating 
components and our nation's first responders who face risk on the front 
lines of homeland security. S&T funds basic research and technology 
development, and supports the Department's major acquisitions through 
testing, evaluation and the development of standards.
    The Transportation Security Administration (TSA) protects the 
nation's transportation systems to ensure freedom of movement for 
people and commerce. TSA has the lead role at DHS in defining the 
performance of equipment that airports install as part of their 
security measures. DHS S&T and TSA coordinate closely on research 
efforts and equipment test and evaluation to advance capabilities to 
protect the traveling public. These efforts have yielded numerous 
technical improvements that enhance the effectiveness of screening 
techniques and technologies while moving increasing numbers of people 
more quickly through security.
    The Department's research and development priorities are primarily 
customer-driven through our Capstone Integrated Product Team (IPT) 
process. DHS customers chair the Capstone IPTs and establish their 
desired capability priorities based on their assessment of risk in 
their respective mission areas. Three IPTs--Transportation Security, 
Counter Improvised Explosive Devices (C-IED), and People Screening--are 
dedicated to identifying and delivering technological solutions for 
detecting and countering threats to the safety and security of the 
traveling public. Our Transportation Security IPT, led by TSA with 
support from DHS S&T's Explosives Division, strives to identify and 
deliver technologies to improve our layered approach to aviation 
security. TSA is also an integral member of the People Screening IPT, 
providing valuable input as a user of proposed screening technologies. 
Finally, the Counter-IED IPT works to identify and develop trace 
detection and standoff imaging technologies that will impact the next 
generation of checkpoint technologies.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    All three DHS S&T portfolios--Product Transition, Innovation/
Homeland Security Advanced Research Projects Agency (HSARPA), and Basic 
Research--participate in the IPT process. While the IPT members drive 
the selection of Product Transition projects, the expressed needs that 
arise from this process also inform the selection of projects in our 
Basic Research portfolio and similarly inform the higher-risk/high pay-
off initiatives undertaken by our Innovation/HSARPA portfolio. The more 
insight we gain regarding current and future threats and the capability 
gaps of our stakeholders, the better positioned we are to identify 
promising areas of research and explore innovative solutions that are 
outside the development timeframe for the nearer term-focused Product 
Transition portfolio.
    In addition to the Capstone IPT process, we have recently 
established the DHS--Department of Energy (DOE) Aviation Security 
Enhancement Partnership to advance technical solutions to key aviation 
security problems in support of priorities announced by the President 
following the failed Christmas Day bombing attempt While DHS has always 
worked in close collaboration with the DOE National Laboratories, we 
have now agreed to create a senior-level (at the Under Secretary level) 
governance mechanism to manage ways to extend and leverage this 
relationship with a focus on improving aviation security by:

        <bullet>  Delivering key advanced aviation security 
        technologies and knowledge;

        <bullet>  Conducting analyses to assess possible 
        vulnerabilities and threats and support/inform technology 
        requirements, policy, planning, decision-making activities; and

        <bullet>  Reviewing the use of existing aviation security 
        technologies and screening procedures, and the impact of new or 
        improved technologies using a systems analysis approach to 
        illuminate gaps, opportunities and cost effective investments.

    This testimony will primarily address three areas of interest 
expressed by the Subcommittee: the passenger screening research and 
development priorities including current and planned research efforts; 
the physical, social and resource constraints on passenger screening 
and its impacts on technology; and the testing process that implements 
passenger screening technology.

Research and Development Priorities

    There is no single technological solution to aviation security. A 
layered security approach to passenger screening features multiple 
passenger and baggage screening tools and integrates human factors 
considerations, metal detectors, Advanced Imaging Technology (AIT) with 
X-rays and millimeter waves, trace explosives detection and canines. 
S&T's R&D Program is focused on improving the performance of currently 
deployed screening equipment and procedures in the near-term, and 
developing and deploying new technologies and procedures in the long-
term. Future improvements aim to screen passengers and carry-on baggage 
for an increasing range of threats and streamline travel by easing 
certain restrictions, such as the need to remove shoes during screening 
or limits on carrying liquids onto the plane.
    We develop technologies and techniques that maximize our 
operational flexibility to ensure the privacy, civil rights and civil 
liberties of our citizens are protected. Our screening research 
programs are developed and executed in close cooperation with the DHS 
Chief Privacy Officer as well as the Office of Civil Rights and Civil 
Liberties to ensure that we consciously consider and address their 
impacts or risk to the public. S&T conducts in-depth analyses of such 
efforts through ongoing dialogue with the DHS Privacy Office and the 
DHS Office of Civil Rights and Civil Liberties and related 
documentation (i.e. Privacy Impact Assessments or Civil Liberties 
Impact Assessments).
    Through the Checkpoint Program, we continuously evaluate and 
improve the capabilities of currently deployed technologies against new 
threats and seek to develop state-of-the-art threat detection 
technology for TSA passenger checkpoints to screen out evolving threats 
while improving the passenger experience with higher throughput and 
minimal restrictions. The highest-priority effort in this area is 
improving detection software algorithms, including effective automatic 
target recognition, in our currently deployed imaging systems, 
particularly AIT and Advanced Technology (AT) X-ray screening devices. 
AIT is one of the most promising technologies for detecting non-
metallic weapons and small quantities of explosives concealed on 
individuals. AT X-ray provides an enhanced detection capability with 
multi-dimensional visual screening and improved image resolution of 
carry-on bags. Both of these technologies would greatly benefit from 
algorithm improvement and other systems research and engineering 
approaches that consider human factors to optimize security officer 
performance in threat detection and identification. The President's 
Budget Request for this work in Fiscal Year (FY) 2011 is $22.3 million 
and includes the Checkpoint Program, home-made explosives research and 
systems research and engineering related to human factors.
    Efforts dedicated to suspicious behavior detection could also 
provide near-term benefit in passenger screening. The Suspicious 
Behavior Detection Program strives to improve screening by providing a 
science-based capability to identify unknown threats indicated by 
deceptive and suspicious behavior. This program addresses operational 
needs for real-time, non-invasive detection of deception or hostile 
intent that are applicable across the DHS mission. The President's 
Budget Request for this work in FY 2011 is $8.9 million and includes 
the Human Factors Counter-IED Program and its Suspicious Behavior 
Detection Program.
    In the longer term, a continuing, robust RDT&E program across the 
three S&T portfolios is necessary.
    The Explosives Research Program funds multidisciplinary basic 
research in imaging, particle physics, chemistry, material science and 
advanced algorithm development to develop enhanced explosive detection 
and mitigation capabilities. The President's Budget Request for FY 2011 
includes $9.1 million for this work.
    The transition program, guided by the Capstone IPT process, is 
comprehensive and encompasses:

        <bullet>  Automated imaging systems to screen for weapons, 
        conventional explosives, and homemade explosives (HME) in 
        carry-on bags;

        <bullet>  Trace explosives detection capabilities for 
        identifying explosives on people and in carry on baggage;

        <bullet>  A next generation fully automated checkpoint for 
        detecting weapons and explosives on people for aviation, mass 
        transit, public gathering venues, or other potentially high-
        risk buildings;

        <bullet>  Human performance research and technology development 
        for increased security officer efficiency and effectiveness;

        <bullet>  A science-based capability to derive, validate, and 
        automate detection of observable indicators of suicide bombers;

        <bullet>  A science-based capability to identify known threats 
        and facilitate legitimate travel through accurate, timely, and 
        easy-to-use tools for biometric identification and credential 
        validation;

        <bullet>  Technologies and methods for identifying insider 
        threats.

    The President's Budget Request for FY 2011 is $31.1 million for 
Counter-IED efforts applied to checkpoint screening for explosives.
    The innovation program, managed by HSARPA, is looking at ``leap-
ahead'' technologies such as:

        <bullet>  Future Attribute Screening Technology (FAST) to 
        determine if it is possible to detect malintent (the mental 
        state of individuals intending to cause harm) by utilizing non-
        invasive physiological and behavioral sensor technology, 
        deception theory, and observational techniques. Though we have 
        established an initial scientific basis for the technology, 
        this project is still in the early stages as we work on both 
        the science and theory to support the concept.

        <bullet>  MagViz is looking at the possibility of using 
        technology similar to hospital MRI machines to look for and 
        identify liquids. The magnetic fields in MagViz are much lower 
        power than its medical counterparts, allowing operation without 
        the restrictions and high costs of traditional MRI. We 
        demonstrated this technology with a small scale prototype at 
        the Sunport Airport in Albuquerque, NM in December 2008. MagViz 
        was successful at identifying a dangerous liquid in a small 
        bottle among many non-hazardous liquids in a standard TSA 
        checkpoint bowl. The project is still in the research phase, 
        and we are now trying to prove the technology using a larger 
        size container and a broader array of both non-hazardous and 
        potentially hazardous liquids.

    The President's Budget Request for FY 2011 is $11 million for these 
projects.
Acknowledging Constraints
    Development and the eventual deployment of effective passenger 
screening technology must meet legal and regulatory requirements. S&T 
works closely with TSA and other DHS offices to ensure the work we are 
doing has a clear path to deployment.
    In addition to meeting the letter and intent of laws and 
regulations, public acceptance and perceptions of technology are 
important factors that cannot be overlooked. S&T uses Community 
Perceptions of Technology Panels that include informed experts from 
industry, public interest, and community-oriented organizations to 
identify potential acceptance issues.

S&T Role at the Transportation Security Laboratory (TSL)

    Test and evaluations activities at the TSL encompass two 
independent functions. First, the Independent Test and Evaluation 
(IT&E) function is responsible for evaluating mature technology that 
may meet TSA's security requirements and is suitable for piloting or 
deployment. Second, the research and development function has 
responsibilities ranging from applied research, to prototype 
development, to technology maturation that produces prototypes suitable 
for evaluation by the Independent Test and Evaluation Team.
    The IT&E group works closely with TSA's Office of Security and 
Technology to determine and discuss testing requirements, priorities 
and results of evaluations. IT&E activities at TSL include 
certification, qualification, and assessment testing and generally are 
performed to determine if detection systems meet customer-defined 
requirements. Results support decisions of DHS operating elements (such 
as TSA) for field trials and production or deployment, as well as key 
program milestones, benchmarking, and investment strategy. RDT&E 
activities are designed to verify that a prototype or near-commercial 
off-the-shelf system has met performance metrics established within the 
R&D program such that it can proceed to the next R&D stage.
    The Certification Test Program is reserved for detection testing of 
bulk and trace explosives detection systems (EDS) and equipment under 
statutory authority 49 U.S.C. Sec. 44913 for checked baggage. Before 
mature EDS are deployed, it must be certified that salient performance 
characteristics are met.
    Qualification Tests are designed to verify that a security system 
meets customer-defined requirements as specified in a TSA-initiated 
Technical Requirements Document. This test, along with piloting (field 
trials) generally results in a determination of fitness-for-use. This 
process is modeled after the certification process and is defined 
within the Qualification Management Plan. Unlike the Certification 
Test, the requirements of the Qualification Management Plan typically 
expand beyond detection functions to include operational requirements. 
The result of Qualification Testing is a recommendation of whether 
candidate systems should be placed on a Qualified Products List (QPL).
    Laboratory Assessment Testing is conducted to determine the general 
capability of a system. These evaluations of candidate security systems 
are carried out in accordance with interim performance metrics, and the 
results drive future development efforts or operational deployment 
evaluations. While the IT&E group practices best scientific principles 
in test design, execution, and evaluation of data, assessment criteria 
are determined by the DHS component's needs.
    Developmental Test and Evaluation (DT&E) is performed by the R&D 
team at the TSL and involves testing in controlled environment to 
ensure that all system or product components meet technical 
specifications. These tests are designed to ensure that developmental 
products have met major milestones identified within the R&D project. 
DT&E testing at the TSL assesses the strengths, weaknesses, and 
vulnerabilities of technologies as they mature and gain capability. The 
primary focus is to ensure that the technology is robust and ready for 
Certification or Qualification tests.

S&T Role in Standards

    The S&T Test & Evaluation and Standards Division guides the 
National Institute of Standards and Technology's (NIST) standards 
development efforts for aviation security. These efforts are directed 
toward development of voluntary consensus standards and associated test 
methods by the private sectors standards bodies (e.g. Institute of 
Electrical and Electronic Engineers (IEEE); American Society for 
Testing and Materials International (ASTM International); the National 
Electrical Manufacturers Association (NEMA); InterNational Committee 
for Information Technology Standards (INCITS); and the International 
Organization for Standardization (ISO).
    Chief test engineers from TSL and TSA are actively engaged with 
NIST on standards development, ensuring that U.S. national standards 
reflect the need for enhanced aviation security.

Conclusion

    Aviation security is critical. As I've described, we will leverage 
the resources of the National Laboratories to bring needed capabilities 
to the forefront, and we will continue to collaborate with other 
Federal partners, academia and industry. We have a Broad Agency 
Announcement in place to solicit technological solutions for countering 
the threat across a broad spectrum. Additionally, we are engaging our 
international partners to ensure we are capturing the best technologies 
possible and to help them improve their security capabilities.
    Thank you for your dedicated efforts to improve the safety of air 
travel for all Americans. I appreciate the opportunity to meet with you 
today to discuss research initiatives to strengthen passenger screening 
and I look forward to answering your questions.

                    Biography for Bradley I. Buswell

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Wu. Thank you very much, Mr. Buswell. Mr. 
Garamendi, I want to commend you on an impeccable sense of 
timing. Would you care to introduce Dr. Albright?
    Mr. Garamendi. Thank you very much, Mr. Wu. I don't know 
that I have the sense of timing but good fortune. I finished my 
work on the Floor and was able to get here to introduce Dr. 
Albright.
    I have never ceased to be amazed at all the things that are 
done at our National Laboratories, and particularly the most 
important of all National Laboratories, the one in my district, 
Lawrence Livermore National Lab. Every time I delve into that 
lab, I find some fascinating, new things that are going on and 
things that are very, very important.
    Dr. Albright is really into something that is important to 
all of us. He is the Principal Associate Director for Global 
Security at the lab. He is responsible for applying the labs' 
multi-disciplinary science and technology to anticipate, 
innovate, and deliver responsive solutions to our Nation's 
complex global, national, homeland and energy security 
challenges, which is a complex way of saying he is going to 
make sure we are prepared. And in that context, he comes with 
extraordinary background, both in the public sector as well as 
in the private sector, in the private sector with Civitas 
Group, an organization that kind of put these pieces together 
on the private side in matching innovation with needs and the 
money to make it all happen. And he was also the Assistant 
Secretary in the Department of Homeland Security where he 
achieved several remarkable goals, the most important of which 
was he took the budget from $700 million to $1.6 billion. We 
are ready to learn from you how we might do it in the context 
of today's hearing.
    In any case, we now move onto his testimony and the work 
that is being done, and I look forward to hearing that. Dr. 
Albright, welcome.
    Chairman Wu. Thank you very much, and I do want to commend 
the gentleman. We are watching your fine work on the Floor on 
this little monitor here, and scuttling over here was a good 
piece of work, and I am sure the amendment was a very fine 
piece of work also. Thank you.
    Mr. Garamendi. It was extraordinarily necessary.
    Chairman Wu. Very good. Dr. Albright, please proceed.

   STATEMENT OF DR. PENROSE C. ALBRIGHT, PRINCIPAL ASSOCIATE 
   DIRECTOR FOR GLOBAL SECURITY, LAWRENCE LIVERMORE NATIONAL 
                           LABORATORY

    Dr. Albright. Mr. Chairman, Mr. Smith and I want to 
particularly thank Mr. Garamendi. Thank you for that wonderful 
introduction. And thank you for the opportunity to testify at 
this important hearing today on research and development 
activities aimed at improving aviation security.
    Let me make just one quick comment about Mr. Garamendi. He 
may not know that I just became a constituent only two months 
ago, and so I am a native actually of this area for most of my 
career but got lured out to come to Livermore and am very, very 
happy to be there and proud for you to be my Representative.
    So what I want to do--as you said, I am the Principal 
Associate Director of Global Security at Lawrence Livermore 
Labs, one of the National Laboratories that is managed by NNSA 
[National Nuclear Security Administration] within the 
Department of Energy. We do an awful lot of work on aviation 
security at large, but what I want to focus my comments on 
today specifically are in those efforts associated with 
passenger screening at the checkpoint.
    The NNSA laboratories have long been and continue to be 
fully committed to contributing their capabilities in systems 
analysis, explosives, high-performance computing, and other 
resources to work with the Department of Homeland Security and 
other partner agencies to protect aviation and combat terrorist 
threats. In fact, it was in recognition of the particular 
capabilities of the Department of Energy National Laboratories 
that specific language was inserted in the enabling legislation 
for the Department of Homeland Security to permit a special 
relationship to exist between DHS S&T and the National 
Laboratories. I know, I actually wrote that language.
    On explosives, this is actually a very, very hard problem. 
Current events show that explosives continue to be the weapon 
of choice for terrorists worldwide. The threat is evolving. The 
internet has provided the terrorists with information to 
manufacture homemade explosives using readily available 
chemicals. They are also very, very, very difficult to detect. 
In some cases, billionths of grams are what is available for 
sampling, and it must be detected in the presence of other 
potentially confusing but benign materials. TSA officers only 
have a short time to detect explosives and assess the situation 
before they allow the passage of people if they are to maintain 
the flow of people and goods.
    So concentrated research and continuous research and 
development is fundamental to understanding the threat and 
creating the tools that will give our Nation the capability to 
decrease our vulnerability.
    The technical capabilities of the National Laboratories, 
and very importantly their status as federally funded research 
and development centers, which brings with it unquestioned 
objectivity and independence and unfettered access to 
government data and proprietary information, for example, air 
frame structural data from the air frame manufacturers like 
Boeing and Airbus, is crucial to improving the security of 
aviation and providing the necessary and enduring focus to this 
problem.
    So the National Labs have been involved in high explosive 
research development since the very beginning. Most of you on 
this Committee don't need to be educated on the role that high 
explosives plays in the design and testing of nuclear weapons. 
And so we have now, over time and for a long time, been 
applying that expertise to the needs of the Department of 
Energy of course, the Defense Department, the Departments of 
Justice, the FAA [Federal Aviation Administration], and most 
recently, the Department of Homeland Security.
    The laboratories combine cutting-edge computer simulation 
codes, state-of-the-art diagnostics, and an environment where 
both theoretical and experimental chemists, physicists, 
engineers, materials scientists, can work together to provide a 
detailed understanding of the science of energetic materials, 
their effect on aircraft structures, their impact on existing 
detection systems at the passenger checkpoint, and how systems 
might be improved to enhance aviation security. As part of that 
effort, the Department of Homeland Security brought together 
the three NNSA labs, Sandia, Los Alamos and Livermore, in 2006 
to create a program called the National Explosives Engineering 
Sciences and Security Program which capitalized on the FFRDC 
[Federally Funded research and Development Center] model, 
utilizing the expertise of those labs to develop and implement 
cutting-edge engineering in science-based methods aimed at 
reducing risk to aviation. That effort has included the 
evaluation and characterization of explosive formulations, the 
assessment of catastrophic damage, rapid assessment of 
technical and performance of emerging detection systems and 
their applications.
    Our future efforts include more focused effort on homemade 
explosives, on extending the vulnerability analysis to the full 
panoply of commercial air frames. We are also taking on a 
substantial effort to perform systems analysis of aviation 
security to include both the people who would do us harm, their 
vulnerabilities they are trying to exploit, and the means by 
which they conducted the attack. And under the President's 
initiative, near-term improvements to existing deployed systems 
will be examined and potentially new and revolutionary 
technologies will be vetted and tested.
    I will conclude my remarks by saying there is much work to 
be done in aviation security. The threat is enduring, smart and 
adaptive to what we do. The NNSA laboratories have extensive 
experience in conducting the kind of analysis needed to reduce 
our vulnerabilities, and we are committed to working closely 
with the DHS, with NIST and with our partners across the 
federal government to mitigate that threat.
    Thank you for this opportunity to appear before you today. 
I will be pleased to answer any questions you might have.
    [The prepared statement of Dr. Albright follows:]
             Prepared Statement of Dr. Penrose C. Albright
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to testify at this important hearing to explore research 
and development activities aimed at improving aviation security. I am 
Parney Albright, Principal Associate Director for Global Security at 
the Lawrence Livermore National Laboratory (LLNL), one of the National 
Laboratories managed by the National Nuclear Security Administration 
(NNSA) within the Department of Energy (DOE).
    My comments today will focus specifically on those efforts 
associated with passenger screening at the passenger checkpoint. I will 
begin my comments with an overview of our current efforts and where 
those efforts are headed in response to President Obama's directive on 
aviation security R&D with its specific mandate to involve the DOE 
National Laboratories. I will then discuss how our efforts are 
currently coordinated with the Department of Homeland Security, Science 
& Technology Directorate (DHS S&T), the Transportation Security 
Administration (TSA), and the National Institute of Standards and 
Technology (NIST). Finally, I will make some brief comments on the 
social science aspects of passenger screening.

Current Aviation Security Programs & Response to the President's 
                    directive

    In response to the December 25, 2009 terrorist attempt to destroy 
Northwest Flight 253, and the President's subsequent directive, the 
NNSA National Laboratories (LLNL, Los Alamos National Laboratory (LANL) 
and Sandia National Laboratory (SNL)) continue to be fully committed to 
contributing their capabilities in systems analysis and engineering, 
explosives science and technology, high performance computing, modeling 
and simulation, and other resources to support the President, and work 
with the Department of Homeland Security (DHS) and other partner 
agencies to provide aviation security and combat terrorist threats.
    This is a hard problem. Explosives have long presented the most 
prevalent threat to transportation security, to critical facilities, 
and to individuals. Current events show that explosives continue to be 
the weapon of choice for terrorists worldwide. The threat is evolving, 
and the increased access worldwide to the internet has provided the 
terrorists with information to manufacture homemade explosives (HME) 
using readily available chemicals. Explosives are very difficult to 
detect--in some cases, only trace evidence (billionths of grams) are 
available for sampling, and bulk quantities of explosive mater must be 
detected in the presence of other potentially confusing, but benign, 
materials. TSA officers only have a short time to detect explosives and 
assess the situation if they are to maintain the flow of people and 
goods.
    Continuous and concentrated research and development is fundamental 
to understanding the threat and creating the tools that will give our 
nation the capability it needs to decrease our vulnerability. In order 
to provide that enduring focus on hard problems, the government created 
a unique type of organization to fill this gap: the Federally Funded 
Research and Development Center (FFRDC). Objectivity and independence 
are ensured by the legal structure of the FFRDC, which requires it to 
refrain from competition with the private sector, be free from 
organizational conflicts of interest, and provide full disclosure of 
its affairs to the primary sponsoring agency. In turn, an FFRDC has 
access beyond that which is common to the normal contractual 
relationship-to Government and supplier data, including sensitive and 
proprietary data. They are depended upon to effectively craft solutions 
to our nation's toughest problems and to anticipate and mitigate future 
challenges. The technical capabilities, and FFRDC status of the 
National Laboratories, their objectivity and independence, and the 
unfettered access to government data and proprietary information such 
as, for example, airframe structural data, is crucial to improving the 
security of aviation.

Current Efforts

    The National Laboratories have been involved in high explosives 
research and development since their inception, and apply that 
expertise to the needs of the Defense Department, the Department of 
Justice, the Federal Aviation Administration, and more recently, to 
DHS. Laboratory researchers combine cutting edge computer simulation 
codes, state-of-the-art experimental diagnostics, and an environment 
where theory- and experiment-based chemists, physicists, engineers, and 
material scientists can work together to provide a detailed 
understanding of the science of energetic materials, their effect on 
aircraft structures, their impact on extant detection systems at, e.g., 
the passenger checkpoint, and how systems might be improved to enhance 
aviation security.
    The National Explosives Engineering Sciences Security (NEXESS) 
Center, established by DHS S&T in 2006, has capitalized on the FFRDC 
model, utilizing the expertise of the National Laboratories to develop 
and implement cutting-edge engineering and science-based methods aimed 
at reducing the risks to aviation. The main focus of NEXESS work has 
been on performance characterization of homemade explosives (HME) and 
understanding vulnerability of aircraft to HME threats. The NEXESS 
Center has provided an important science base for aviation security, 
including:

        <bullet>  Evaluation and characterization of explosive 
        formulations including, emerging (e.g. homemade) explosive 
        threats, the determination of detonability, methods of 
        initiation, detonation velocity, and impulse energy;

        <bullet>  Assessment of the catastrophic damage threshold for 
        aircraft as a function of explosive amount, location, and 
        flight conditions (initial work has been focused on a specific 
        narrow body airframe) using a combination of highly 
        sophisticated computer modeling in concert with small and large 
        scale experiments;

        <bullet>  Rapid assessment of the technical performance of 
        emerging detection systems and their application to aviation 
        checkpoint security; including one particular example that 
        involved working with L3 to determine the utility of active 
        millimeter wave technology for the detection of concealed 
        liquid explosives on a person.

    Due to acquisition priorities, the NEXESS Program has recently been 
centered on developing system requirements for the procurement of the 
next generation of checked baggage screening systems. Of particular 
interest is the LLNL Image Database Development (IDD) Project, which 
aims to provide a sound basis for standards for next-generation 
screening equipment. The project, which is sponsored by DHS S&T, is 
executed in close coordination with DHS S&T, the Technical Support 
Working Group (TSWG), Explosive Detection System (EDS) system 
developers, advanced algorithm developers, the Transportation Security 
Laboratory (TSL), and TSA.
    The IDD Project collects raw x-ray data and images for the various 
EDS and emerging digital radiography (DR) machines to stimulate 
commercial development of next-generation systems that provide the 
``best value'' combination of performance and affordability for 
screening checked and carry-on baggage. Performance is measured by a 
number of criteria, including probability of detection, level of false 
alarms, signal-to-noise ratio, figure of merit, and throughput.
    Compiled from both industry and government-laboratory sources, the 
data are stored in a common nonproprietary database located at LLNL. 
This information is used to assist both government and industry in 
developing a new performance standard for screening checked and carry-
on baggage, and for determining needed modifications to future hardware 
and software to provide higher performance in detecting an increasing 
portfolio of explosives risks. Working with the NEXESS team, the IDD 
project is currently supporting DHS/TSA efforts to develop systems 
specifications and test plans for the $1-billion EDS procurement to be 
completed in FY 2010.
    A similar activity, conducted at Sandia National Laboratory, 
involves the characterization of threat objects as seen by whole body 
imaging systems. This effort compiles the variety of images seen by 
various imaging systems, thus making available a library against which 
new detection algorithms can be developed and tested.
    Los Alamos National Laboratory is investigating the use of ultra 
low field magnetic resonance imaging (MRI) for detecting harmful 
materials inside sealed containers. MagViz works by manipulating and 
detecting hydrogen atoms with small magnetic fields. Pattern-matching 
software compares the detected signature with a database of dangerous 
materials.

Future Efforts

    Under the President's R&D initiative, the NEXESS effort plans to 
accelerate the evaluation and characterization of a rather long list of 
explosive formulations. In addition, the National Laboratories will 
create a ``Threat Matrix'' that characterizes these explosives not just 
in terms of their effects on aircraft, but also in the range of 
signatures they present to deployed and new detection technologies, 
thus allowing this effort to more fully inform enhancements to existing 
systems and the design of future ones.
    As part of the vulnerability analysis, we will accelerate the 
assessment of the susceptibility of the full panoply of commercial 
aircraft airframes to the variety of explosives represented in the 
threat matrix, using computer analysis as well as subscale and large 
scale testing.
    In addition, under the President's initiative, substantial efforts 
will be placed on the systems analysis of aviation security-
understanding the various paths that might be exploited by a terrorist 
to create an aviation catastrophe, the points where government 
capabilities might be brought to bear to intervene and disrupt an 
incident, and the alternative architectures of capabilities that serve 
to mitigate the risk to aviation security. This effort, to be 
successful, should be focused on addressing all the contributors to 
risk-the people who would do us harm, the vulnerabilities they try to 
exploit, and the means by which they conduct the attack. Concepts 
developed by the National Laboratories for DHS Policy-in support of the 
development of planning guidance-serve as a very useful model for 
understanding the most productive approaches to accomplishing our goals 
for mitigating risk. The systems analysis effort will also consider the 
implications to the concept of operations of deploying new and improved 
screening technologies and combinations of technologies.
    Furthermore, under the President's initiative, near term 
improvements to extant deployed systems will be examined. For example, 
methods for automated anomaly detection in whole body imagers will be 
explored and tested, perhaps allowing these systems to be deployed at 
the primary passenger checkpoint-due to the ability of one operator to 
now supervise multiple machines. Methods for automating secondary 
inspection-for example, the use of high frequency probes to rapidly 
ascertain whether or not a threat is posed by detected anomalies-
present the possibility for increasing throughput and perhaps even 
obviating privacy concerns.
    Finally, under the President's initiative, new, potentially 
revolutionary technologies will be vetted and tested. For instance, 
prospective technologies for determining whether a liquid within carry-
on baggage in fact represents a threat will be assessed for use. If 
successful, it might allow the flying public to again carry duty-free 
purchases or their accustomed toiletries.
    While the NNSA National Laboratories have a long history of 
combining science and systems analysis with innovation and engineering, 
they do not create production lines and manufacturing facilities. 
Hence, over the years, the National Laboratories have worked closely 
with our government sponsors and with industry to commercialize those 
innovations, including explosive detection capabilities for aviation 
security. The currently deployed millimeter wave (mmW) whole body 
imaging technology uses a licensed technology from Pacific Northwest 
National Laboratory (PNNL). LLNL has commercialized first generation 
colorimetric devices, such as the Easy Livermore Inspection Test for 
Explosives (ELITE), which is sensitive to more than 30 different 
explosives and provides immediate results. The National Laboratories 
continue to work on advanced algorithms to simultaneously address false 
alarms, enhance sensitivity to the expanding panoply of threats, and 
protect individual privacy.

Coordination with DHS S&T, TSA, and NIST

    The primary source of funding for Aviation Security Programs at the 
National Laboratories is DHS S&T and TSA. In addition to our regular 
interactions with the DHS and TSA program managers and routine peer 
reviews conducted at the National Laboratories (by academic and 
industry experts), the NEXESS program has also established a Blue 
Ribbon Panel chaired by TSA and includes members from DHS S&T, TSL, the 
private sector, and academia. This panel provides assistance in 
evaluating and redefining the explosives detection and certification 
standards for a range of automated screening systems.
    The National Laboratories also support the DHS Explosive Standards 
Working Group (ESWG), which is chaired by DHS S&T, and includes broad 
membership across the DHS Components, the NIST and other Federal 
agencies. LLNL and other National Laboratories are members of the 
National Electrical Manufacturers Association (NEMA) team, which has 
been chartered by DHS to write a new standard for airport security 
called Digital Communication in Security (DICOS). The standard will 
enable prevention, detection, and response to explosive attacks by 
standardizing the screening of checked bags as well as other threat 
risk detection attributes at airports and other security areas. While, 
the current focus is on x-ray equipment, there are plans for future 
work in whole body imaging technologies.
    Over the last 10 years, the National Laboratories have broadly 
engaged the scientific community in aviation security. LANL, LLNL, and 
SNL scientists have participated in numerous National Academy studies 
and co-authored several reports, including a report entitled, Airline 
Passenger Screening, New Technologies and Implementation Issues.

Social Science Impact of New Technologies

    Commercial deployment of new and improved technologies to meet the 
threats of today as well as anticipated future threats will require a 
robust scientific research program to meet the required technical 
performance and effectiveness. However, we must be mindful that 
successful deployment of these technologies requires the acceptance of 
the people required to use it (e.g., airport screeners) and people 
affected by it (e.g., passengers and crews). Public concern related to 
passenger screening technologies has been persistent over time and 
includes health, legal, operational, privacy and convenience issues.
    It is my firm belief that the acceptance of a technology-such as 
whole body screening-will be strongly influenced by the public's 
perception of the benefits in relation to the loss of privacy. These 
trades are made all the time by the public, and in the absence of a 
clearly defined benefit (in terms of enhanced security), the lack of 
public support should surprise no one. If government regulators mandate 
such an approach (or an optional full body ``pat down'' in lieu of the 
image) without defining in clear terms the benefits to the public in 
terms of security, or perhaps convenience (e.g. coat removal is no 
longer required), and in a manner that does not pay due respect to the 
cultural sensitivities and social concerns of society, then the public 
will resist. Hence, along with the development of new technical means, 
it is important to research the social science issues associated with a 
technology that maybe deemed necessary due to the evolution of the 
threat or the improvement of capability. Such social science efforts 
should address the multicultural issues surrounding modern air travel-
and address questions like why a socially conservative country like 
Saudi Arabia accepts full body imaging, while the U.S. public is 
seemingly less inclined.
    There is much work to do in this area. Understanding the complex 
interaction between threat and defense requires system-level modeling 
and analysis across the entirety of the problem. When dealing with the 
public in such a direct manner on a 24/7/365 basis, the traditional 
technical performance metrics, cost effectiveness, and the integration 
issues must stand alongside an appreciation of the human factors 
associated with deployment. The National Laboratories have extensive 
experience in conducting this type of analysis for a broad range of 
national security applications.

Conclusion

    As I have demonstrated through a number of examples, the NNSA 
National Laboratories have long engaged in a wide range of Aviation 
Security Programs to prevent terrorist use of high explosives. Lawrence 
Livermore, Sandia, and Los Alamos National Laboratories have worked 
with DHS since 2006 in aviation security, working closely with DHS S&T 
and TSA. The President's directive on Aviation Security specifically 
challenged the Department of Energy, and in particular it's National 
Laboratories, to respond to the need for innovation in this arena. We 
look forward to accepting the President's challenge, and applying the 
full power of these laboratories-multi-disciplinary science and 
engineering, high performance computing, and (importantly) the core 
mission to serve the Nation without any real or perceived conflict of 
interest, as a partner to the government in the context of our special 
relationship as an FFRDC--to secure our Nation's aviation and our 
freedoms. In pursuing this effort, we will work closely with DHS, which 
has been the primary funding source of many of our aviation security 
projects, and other partner agencies to meet this vitally important 
challenge to national security.

                 Biography for Dr. Penrose C. Albright

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Wu. Thank you very much, Dr. Albright. Dr. 
Coursey, please proceed, five minutes.

  STATEMENT OF DR. BERT COURSEY, PROGRAM MANAGER, COORDINATED 
  NATIONAL SECURITY STANDARDS PROGRAM, NATIONAL INSTITUTE OF 
                    STANDARDS AND TECHNOLOGY

    Dr. Coursey. Chairman Wu, Ranking Member Smith and Members 
of Subcommittee, I am Bert Coursey, the Program Manager, 
Coordinated National Security Standards Program at NIST. Thank 
you for the opportunity to appear before you today to discuss 
NIST's work relevant to passenger screening and our 
relationship with components of the Department of Homeland 
Security, including the Transportation Security Administration, 
the Science & Technology Directorate, and the Transportation 
Security Laboratory, TSL.
    Since 2003 NIST's unique capabilities in measurement 
science have been leveraged in a coordinated way with DHS to 
help address critical challenges in multiple areas relevant to 
homeland security. Today I will focus my remarks on NIST's 
efforts relevant to passenger screening technologies.
    Let me quickly highlight the work that NIST is engaged in 
relevant to passenger screening in the following areas. 
Additional information about each of these is contained in my 
written statement. NIST is involved in measurement standards in 
the following areas, trace explosive detection, X-ray 
explosives detection, use of canines for explosives detection, 
standoff imaging or millimeter wave systems, reference data for 
explosives, metal detectors, biometrics to enhance screening of 
travelers, and conformity assessment support for passenger 
screening technologies.
    In each of these areas, NIST is working in collaboration 
with scientists and engineers from DHS components, with our 
industry and academic partners, end users and the Nation's 
voluntary standards organizations to set the baseline for 
standards and test methods for explosives detection. Several of 
these projects lead to national voluntary consensus standards, 
and some of these efforts are leading to international 
standards. However, in many other projects the test data, test 
materials and new test methods are being provided directly to 
DHS, TSA, S&T, U.S.-VISIT [U.S. Visitor and Immigrant Status 
Indicator Technology] and to our and our other federal partners 
for their immediate use.
    NIST has been involved since 2003 in a multi-year effort 
with the Transportation Security Laboratory in Atlantic City to 
engage in research that supports standards and measurement 
needs for trace explosives screening. The research is designed 
to improve the reliability and effectiveness of current systems 
as well as support the development of next generation detection 
technologies. This work is also providing valuable tools to TSA 
in the form of test kits and training methods that allow them 
to optimize the sampling of explosives by the TSA operators. 
NIST has recently facilitated the development of a suite of 
national X-ray performance and radiation safety standards that 
cover the gamut of aviation and transportation venues where 
explosives are screened. These American national standards are 
finding increasing use in national and international settings 
through close cooperation between NIST, DHS agencies and our 
industrial and foreign partners.
    The NIST Standard Reference Data Program is a world-class 
resource for reference data for thermal, physical and 
spectroscopic properties of materials for the science and 
engineering communities. There are serious gaps in the 
reference data for explosives. NIST has several projects using 
state-of-the-art systems to acquire new physical and chemical 
measurement data and also to provide data sets of critically 
evaluate data from the literature.
    NIST scientists have developed a world-class reference 
facility for measuring the performance of metal detectors, both 
the hand-held and the walk-through types. Using this facility, 
NIST developed rigorous and exacting performance standards, one 
each for the hand-held and for the walk-through metal detectors 
for the National Institute of Justice as the standards 
organization. These NIJ standards are used as the basis for 
procurement for other federal agencies including the Federal 
Bureau of Prisons and the Transportation Security 
Administration.
    NIST helps lead the development of many biometric standards 
used to support the screening of travelers. These standards 
support data sharing and interoperability between points of 
encounter and centralized biometric services such as the DHS 
IDENT [Automated Biometric Identification System] and the FBI 
IAFIS program.
    When screening travelers, it is important to deploy 
technology and processes that provide the highest level of 
security while keeping the traveling public moving efficiently 
through checkpoints. To facilitate that, NIST conducts 
biometric usability studies that help ensure that screening 
systems are easy, efficient, and intuitive for travelers and 
inspection agents alike.
    Members of the Subcommittee, thank you for your dedicated 
efforts to improve the safety of air travel for all Americans. 
I appreciate the opportunity to meet with you today, 
participate in this panel and to discuss the role of national 
standards in strengthening passenger screening. I look forward 
to your questions.
    [The prepared statement of Dr. Coursey follows:]
                 Prepared Statement of Dr. Bert Coursey
    Chairman Wu, Ranking Member Smith, and Members of the Subcommittee, 
I am Bert Coursey, the Program Manager, Coordinated National Security 
Standards Program, at the Department of Commerce's National Institute 
of Standards and Technology (NIST). Thank you for the opportunity to 
appear before you today to discuss NIST's work relevant to passenger 
screening and our relationship with components of the Department of 
Homeland Security (DHS), including the Transportation Security 
Administration (TSA), the Science & Technology Directorate (S&T), and 
the Transportation Security Laboratory (TSL) of S&T.
    Since 2003 NIST has had a coordinated relationship with the DHS 
where NIST's unique capabilities in measurement science have been 
leveraged to help address critical challenges in multiple areas 
relevant to homeland security including chemical and biological agent 
detection, biometrics, first responder communications, and a number of 
other areas. Today I will focus my remarks on NIST's efforts relevant 
to passenger screening technologies, but before I get into the 
specifics of the work I would like to highlight the unique role that 
the NIST research efforts play in the larger DHS, TSA, and S&T/TSL 
research, development, testing, and evaluation enterprise.
    As a non-regulatory agency of the U.S. Department of Commerce, 
NIST's mission is to develop and promote measurement, standards, and 
technology to enhance productivity, facilitate trade, and improve the 
quality of life. To fulfill this mission, NIST scientists and engineers 
continually refine the science of measurement, making possible the 
ultra-precise engineering and manufacturing required for today's most 
advanced technologies. They also are directly involved in standards 
development and testing done by the private sector and government 
agencies.
    It is this focus, and the unique capabilities which result, that 
make NIST an important partner in DHS's science and technology efforts. 
The measurement methods, standards reference materials, and new 
measurement technologies produced by NIST are used to both improve the 
reliability and effectiveness of current passenger screening systems, 
as well as support the development of next generation detection 
technologies. The importance of this work to DHS efforts and the 
recognized need for close collaboration was formalized in a 5-year MOU 
between NIST and DHS signed in 2003 and renewed with a follow-up MOU in 
2008.
    In the remainder of my testimony, I would like to highlight the 
work that NIST is engaged in relevant to passenger screening in the 
following areas:

        <bullet>  Trace explosive detection

        <bullet>  X-ray explosives detection

        <bullet>  Canine explosives detection

        <bullet>  Standoff imaging systems

        <bullet>  Reference data for explosives

        <bullet>  Metal detector standards

        <bullet>  Biometrics standards to enhance screening of 
        travelers

        <bullet>  Conformity assessment support for passenger screening 
        equipment

    In each of these areas, NIST is working in collaboration with 
scientists and engineers from DHS components, with our industry and 
academic partners, end users and the nation's voluntary standards 
organizations to set the baseline for standards and test methods for 
explosives detection. Several projects lead to national voluntary 
consensus standards through ASTM International, IEEE, INCITS and 
others, and some of these efforts are leading to international 
standards promulgated by ISO and IEC. However, in many other projects 
the test data, test materials and new test methods are being provided 
to DHS (TSA and S&T) and our other Federal partners for their immediate 
use in testing current and future detection systems.

Trace Explosives Detection

    Working closely with the Transportation Security Laboratory (TSL), 
NIST has been involved since 2003 in a multi-year, DHS funded research 
program that supports standards and measurement needs for trace 
explosives screening. The research is designed to improve the 
reliability and effectiveness of current systems as well as support the 
development of next generation detection technologies. NIST has 
developed the necessary infrastructure critical to the task by 
establishing connections with key stakeholders, purchasing an extensive 
collection of currently deployed trace explosives detection systems, 
and developing unique measurement capabilities and standard test 
materials. This infrastructure allows us to understand and test trace 
detection technology, including the critical front-end sampling 
process.

Fundamental Measurements and Sampling Studies

    Through our ongoing interaction with stakeholders, including the 
TSA, we identified that a primary limitation in detecting trace 
explosives in real world scenarios is the inability to efficiently 
collect the sample. This resulted from a lack of fundamental 
understanding of the physical and chemical nature of the explosive 
residue, and the best mechanisms to collect the explosive particles. We 
have conducted intensive research in this area with the goal of 
understanding and improving the sampling process. This work encompasses 
explosive sample collection by physical swiping, aerodynamics (puffer 
systems) and direct vapor sniffing. We have developed new measurement 
science tools to understand these processes and test their efficiency. 
Working with other standards organizations, such as the American 
Society for Testing and Materials (ASTM), we are developing methods 
that allow both manufacturers and instrument users to determine the 
sample collection efficiency of their systems. In addition, we have 
developed prototype sampling training aids that can be used to test 
screeners in the field and that provide useful feedback to improve the 
process. These standard protocols and materials allow for unbiased 
determination of the effectiveness of the sampling process. Because the 
standards are developed from a fundamental understanding of the 
sampling process, they serve as benchmarks for continual improvement in 
instrument and sampling design.
    Some examples of NIST's outputs in this area have been 1) 
development of a method to determine sampling efficiencies of sample 
wipes used for trace detectors, 2) development of a prototype training 
kit to test and improve screener abilities, 3) research articles on the 
physical nature of explosives residues, identifying specific sample 
characteristics to target when designing collection strategies.

Optimization of Trace Explosives Detection Equipment Performance

    In addition to improvements in the sampling process, further 
improvements can be made in the trace explosive instruments themselves. 
Systems can be optimized for detection of current threats, and 
modifications can begin for detection of emerging threats. NIST has 
worked to develop a series of unique measurement tools that allow us to 
study the operational characteristics and fundamental physics that 
underpin the operation of commercially deployed explosive trace 
detectors. By understanding each step of the analysis process in detail 
we are able to make recommendations for improvements in procedures and 
instrument setup for optimized detection performance.
    For several years, NIST has been studying the fundamental science 
of detecting trace explosives by aerodynamic, non-contact sampling. 
Typical implementations of this approach include portal-based (puffer) 
systems. Methods that we have used to study these systems include laser 
imaging, high-speed videography, and bulk flow tracking, all of which 
allow real-time visualization of how the air moves around a person's 
body. These methods, in turn, give NIST researchers insight into how to 
sample explosive material from a person's shoes, hands, and body. 
Results typically lead to a better understanding of how these systems 
work, and may offer valuable information on how to improve the current 
technology. NIST has also been actively pursuing advanced sampling 
research with the TSL, developing technologies capable of evaluating 
sampling systems that may be five to 10 years in the future. 
Aerodynamic particle sampling is a key concept for these future 
technologies and likely to be implemented in shoe and cargo sampling 
which is gaining importance because of the potential for non-contact 
high-throughput sampling. We have a prototype shoe screening system in 
our laboratory provided by the TSL.

Standard Test Materials for Tabletop Swipe Based Detectors

    Our standards development activities include new types of standard 
test materials and sampling test methods. The NIST test materials are 
being developed to test not only the performance of the detection 
technology but also screener performance. A series of NIST Standard 
Reference Materials (SRM's) have been produced that allow evaluation of 
bench-top explosives detectors. We have also developed a novel approach 
for making explosive test materials using inkjet printing to dispense a 
known and well-characterized amount of explosives onto special test 
coupons. This is a cost-effective way of producing a large number of 
well-characterized and field deployable test materials. We currently 
produce test materials of the major explosives including RDX, TNT, 
PETN, and AN. These materials could be used in a variety of scenarios 
including covert testing, predeployment equipment verification as well 
as validation and calibration of already deployed systems. Our goal is 
to make inkjet printing technology readily available to any other 
Federal agencies that may desire to produce their own test materials. 
Transferring the technology to end users has been greatly facilitated 
by the commercialization of all of the inkjet systems currently 
developed and in use at NIST.
    NIST has a long history of working with industry and other 
government agencies through need-based efforts to develop standard test 
and reference materials and to work closely in voluntary standards 
organizations such as ASTM and ISO (International Organization for 
Standards) where standard methods are written. Standard methods and 
standard reference materials go hand-in-hand in assuring accuracy and 
reproducibility across technical communities; in this case verification 
and calibration of trace detection instrumentation. To document the use 
of the NIST standard test materials, an ASTM standard method has been 
developed: ASTM E2520-07 Standard Practice for Verifying Minimum 
Acceptable Performance of Trace Explosive Detectors.

Particle-Based Standard Test Materials

    Due to the low vapor pressure of most explosives, the majority of 
deployed trace explosive detection systems utilize sampling of particle 
residues. Because sampling of these particles is highly dependent on 
screener performance, testing of sampling efficiencies and procedures 
requires the use of standard test particles with known chemical and 
physical properties. Over the last several years we have also developed 
a robust protocol for fabricating polymer encapsulated explosive test 
materials that can be used to test both aerodynamic and swipe based 
explosives detection systems. These particles are being used in 
prototype screener testing kits.

Vapor-Based Standard Test Materials

    Trace vapor detection is a recent addition to the national strategy 
and investment in aviation security. Vapor sampling is far easier and 
less intrusive than particle sampling from surfaces, but suffers from 
the vanishingly small chemical signals emanating from explosive 
devices. Trace vapors from explosives are typically mingled with a wide 
variety of benign compounds in the environment, which can mask or cause 
false alarms. Reliable vapor-based standard test materials are needed 
to validate the performance of trace vapor detectors, and to improve 
the technologies on which they are based.
    NIST is developing several systems for performance verification at 
laboratory and operational sites. We have developed a vapor generator 
based on inkjet technology, where microdrops containing trace levels of 
explosives are evaporated and mixed with calibrated air flows. This 
system, in fact, is capable of reliably generating trace vapors below 
current detection limits, which provide future validation for next-
generation vapor detection technologies.
    Field-deployable systems are also being considered and developed. 
For simple pulsed delivery, there are metered dose inhalers adapted 
from the health care industry, and encapsulated scents adapted from the 
fragrance and flavor industry. For simple continuous delivery, there 
are vapor permeation and saturation devices (similar to smelling salts 
and room fresheners).

Next-Generation Trace Explosives Sensors

    In an effort that highlights the unique capabilities that can be 
found at NIST, researchers are adapting frequency comb technology--
which originated from Nobel Prize winning research at NIST aimed at 
producing ultra-precise atomic clocks at NIST--into a sensor that can 
detect the trace gases of explosives. The detection of trace gases that 
come from explosives is an extremely challenging problem both because 
the vapor pressure of many common explosives are extremely low, and 
because many interferents will also be present in any realistic 
situation. Through a program funded by DHS S&T, NIST is pursuing a 
detection technique, known as frequency comb spectroscopy (FCS), with 
the potential to overcome these challenges, providing high sensitivity 
AND broad spectral coverage. The challenge posed by the interferents 
can be met through the broad spectral coverage of the combs; this 
spectral coverage permits FCS to generate a full spectral fingerprint 
of the trace gases and therefore achieve the required selectivity. The 
adaptation of this fundamental measurement science research could 
ultimately lead to a game-changer detection technology that won't 
require time consuming sampling methods.

National X-Ray Standards for Bulk Explosives Detection

    National X-ray standards are necessary to insure that security 
screening systems for bulk-explosives detection meet the surveillance 
challenge while properly handling all radiation safely considerations--
i.e., they provide the measurement tools to insure that minimum 
performance and safety requirements are met.
    Through funding from DHS S&T Test & Evaluation and Standards 
Division, NIST has recently facilitated the development of a suite of 
national x-ray performance and radiation safety standards that cover 
the gamut of aviation and transportation venues where explosives are 
screened: checkpoint, checked luggage, cargo, vehicle, and whole-body 
imaging. These American standards are finding increasing use in 
national and international settings through close cooperation between 
NIST, DHS agencies, industrial partners and foreign partners.
    In the area of security systems for screening of humans using X-
rays and/or Gamma rays, DHS and NIST collaborated in the development of 
an American National Standard for measuring imaging performance--IEEE 
ANSI N42.47-2010. This National standard provides standard methods for 
measuring and reporting imaging quality characteristics and establishes 
minimally acceptable performance requirements for security-screening 
systems used to inspect people who are not inside vehicles, containers, 
or enclosures. Specifically, this National standard applies to systems 
used to detect objects carried on, or within, the body of the 
individual being inspected. It covers the use of both, backscatter X-
ray systems (i.e., detect the X-rays reflected back from the individual 
being inspected) and transmission x-ray systems (i.e., detect the X-
rays passed through the individual being inspected).
    As performance is not the only consideration in the use of these 
security-screening systems, DHS and NIST have also collaborated on the 
development of National standards for radiation safety for personnel 
exposed to them. IEEE ANSI/HPS N43.17-2009 applies to security-
screening systems in which people are intentionally exposed to primary 
beam x rays, gamma radiation, or both. The standard provides guidelines 
specific to the ionizing radiation safety aspects of the design and 
operation of these systems. This standard was developed under the 
sponsorship of IEEE ANSI National Committee on Radiation 
Instrumentation by a 35-member Working Group with the following Federal 
representation: 4 NIST employees, 7-DHS (including TSA, DNDO, CBP, 
USSS, S&T), 1-FBP, 2-OSHA, 2-FDA, 1-NRC, and 2-U.S. Army.
    IEEE ANSI/HPS N43.17-2009 was influential in the development of a 
new international standard on this topic, EEC 62463-2010, which is 
scheduled for publication in August 2010. This international standard 
is expected to be more comprehensive covering standard requirements, 
specify general characteristics, general test procedures, radiation 
characteristics, electrical characteristics, environmental influences, 
mechanical characteristics, and safety requirements. It will also 
provide examples of acceptable methods, in terms of dose to the whole 
or part of the body, for each screening procedure and their required 
times. In particular, the standard addresses the design requirements as 
they relate to the ionizing radiation protection of the people being 
screened, those in the vicinity of the equipment, and the security-
screening systems operators.
    In the area of checkpoint cabinet X-ray imaging, NIST and DHS have 
collaborated in the development of an American National standard for 
the performance and evaluation of checkpoint cabinet X-ray imaging 
security-screening systems--IEEE ANSI N42.44-2008. This standard 
describes the criteria, test methods, and test objects used to evaluate 
the performance of cabinet x-ray imaging systems. The standard 
addresses systems use to screen items with cross sections smaller than 
1 m  1 m, at security checkpoints and other inspection venues (e.g., 
entrances to Federal buildings). The standard also establishes 
minimally acceptable imaging performance values for a specified set of 
image quality metrics and specifies operational characteristics deemed 
essential for checkpoint x-ray system performance.
    In the area of X-ray computed tomography (CT) security screening of 
checked baggage, DHS and NIST are collaborating on the development of 
an American National Standard for evaluating the image quality of X-ray 
CT security-screening systems--IEEE ANSI N42.45-2010. CT security-
screening technology is currently been used to screen all checked 
luggage at U.S. airports and the quality of data for automated analysis 
is of primary concern. This standard provides standard test-methods and 
-artifacts for measuring and reporting the image quality of CT 
security-screening systems. This standard is likely to be considered by 
TSL as a part of their comprehensive verification and certification of 
CT security-screening systems.
    The above described, and jointly developed, standards and test 
objects not only guide grants and procurement, but also provide ongoing 
quality assurance for aging security-screening systems in the field. 
The uniform application of standard test methods and artifacts allows 
comparison of the imaging performance of novel systems and prototypes 
of competing vendors as well as, provides objective quantitative 
measures of systems claims for a particular technical implementation of 
explosives detection.
    All of these x-ray performance and safety standards continue to be 
under spiral development as threats and technical countermeasures 
evolve.

Canine Explosives Detection

    NIST is working to develop test materials and documentary protocols 
for the reliable evaluation of trace explosives and bomb dog detection. 
SRMs may be used to evaluate performance prior to procurement and 
during field service. The goal is to provide a suite of materials for 
evaluation of both the instrumental trace explosives detectors and bomb 
dogs. For canine performance materials, advanced metrology has been 
developed that permits the accurate measurement of the primary odors in 
numerous explosives. Prototype materials have been prepared that mimic 
the real explosives odor profile and are about to be tested in 
certified bomb dogs. These canine SRMs will provide substantial 
monetary savings as well as greater trainer safety by eliminating the 
current requirement for training aids based on real explosives. NIST 
also takes a leading role in the development of consensus standards 
through organizations such as ASTM and SWGDOG that provide best 
practice protocols for testing detection systems and canines. This work 
is funded by the S&T Test & Evaluation and Standards Division, and 
partners in the standards development activities include scientists in 
S&T and the NPPD Office of Bombing Prevention.

Standoff imaging systems

    NIST research has improved the ability to assess claims on the 
performance of a wide variety of technologies designed to detect 
explosives, and other weapons, concealed on persons in high-traffic 
areas such as airports, railway stations, sports arenas, and similar 
public venues. The work, which is funded by DHS S&T and DOJ National 
Institute of Justice, includes studies of the reflectance/transmittance 
of human skin, fabrics, and threat objects when examined from a 
distance using ultraviolet, visible, infrared, millimeter wave or 
microwave radiation. A key performance goal for these standoff 
technologies is the ability to detect hidden IEDs with high probability 
under various standard scenarios. NIST scientists are also working with 
DHS to develop a standard to quantify the body coverage of whole-body 
imagers, such as x-ray backscatter and millimeter wave systems. These 
recent efforts leveraged longer-term NIST projects in passive and 
active millimeter-wave and terahertz sensing for security applications. 
These projects funded by DHS, DARPA, and DOD, made pioneering 
contributions to active and passive millimeter-wave imaging security 
applications. The research led to advanced millimeterwave and THz 
imaging systems, calibration targets that have been distributed to some 
20research groups, and a database to guide the development of portal 
sensors for screening liquids and solids. NIST and DHS, along with 
other Federal agencies and industry partners, are working with 
standards development organizations to develop standards, test 
artifacts, and test methods for imaging systems for the detection of 
explosives and other threats.

Reference data for explosives

    NIST Standards Reference Data program is a world-class resource for 
reference data for thermophysical and spectroscopic properties of 
materials for the science and engineering communities. NIST has several 
projects using state of the art systems to acquire new data from 
physical and chemical measurements, and to provide data sets of 
critically evaluated data from the literature. Because of the wide 
range of new technologies under development for explosives detection, 
there are serious gaps in the reference data. DHS S&T and NIST funding 
are directed at filling in some of these gaps. One example was driven 
by the potential of a technique known as Dielectric spectroscopy to 
detect hazardous liquids in containers. NIST work showed that this 
technique is capable of clearly differentiating dangerous liquids, such 
as gasoline and bleach, and innocuous liquids, such as water and milk. 
The results thus far have been limited to special test holders and work 
is being undertaken to determine the effect of container typically used 
to hold these liquids. The results of this effort yielded reference 
data, which can be use by researchers to develop new airport scanning 
equipment for liquid containers.
    A second data project is directed toward thermophysical properties 
of explosives. Concealed explosives can be detected through the 
chemical or physical ``signatures'' that they leave behind. Timely and 
reliable physical and chemical property information for explosives is 
therefore essential for the successful development and implementation 
of new detection techniques. But, the properties of explosives are 
widely dispersed in the technical literature and are often discordant 
with poor characterization of data quality (i.e., poor estimates of the 
uncertainty of the chemical-physical properties of the explosive 
compound).
    With support from DHS S&T, NIST is developing software tools for 
on-demand, critically-evaluated physical and chemical properties of 
existing and conceptual explosive compounds. For this project, primary 
experimental information on the properties of explosives is collected, 
critically evaluated, and provided to DHS in the form of expert-system 
software. The NIST expert system includes state-of-the-art property-
prediction tools that allow many evaluations for conventional 
explosives as well as those that have not yet, or cannot yet, be 
studied experimentally.

Metal detector standards

    NIST scientists have developed a world-class reference facility for 
measuring the performance of metal detectors, both hand-held and walk-
through types. This facility uses a computer-controlled robot to 
reproducibly position and move specially designed test objects through 
or by a metal detector. The test objects are fabricated using defined 
metal parameters to ensure consistency from measurement to measurement 
and between different test facilities. The methods developed to test 
the pertinent electromagnetic properties of these test objects have 
been used to support similar test object development for the S&T TSL 
facility. The NIST facility also uses a human electromagnetic phantom 
to emulate the effect of a person on metal detector performance; the 
materials comprising this phantom were developed in collaboration 
between NIST and industry scientists. Using this facility, NIST 
developed rigorous and exacting performance standards, one each for 
hand-held and walk-through metal detectors, for the National Institute 
of Justice (NIJ). These NU standards are used as a basis for 
procurement by other agencies, such as the Federal Bureau of Prisons 
(BOP) and the Transportation Security Administration (TSA). The methods 
used in these standards have been emulated by other groups developing 
other checkpoint security standards and/or test and evaluation methods.

Biometric Standards to Enhance Screening of Travelers

    NIST helps lead the development of many biometric standards used to 
support the screening of travelers. For example, NIST serves as the 
Standards Developing Organization (SDO) for two documentary standards 
(ANSI/NIST-ITL 1-2007 and ANSI/NIST-ITL 1-2008), which facilitates the 
interchange of electronic biometric data including fingerprint, and 
face and iris images. These standards support data sharing and 
interoperability between points of encounter (e.g., a port of entry) 
and centralized biometric services provided by DHS US-VISIT/IDENT and 
other screening partners such as the FBI IAFIS. NIST also participates 
in the development and deployment of national and international 
standards, such as INCITS-M1 and ISO/IEC-SC37, which focus on data 
formats, performance testing, and image quality. With many biometric 
standards to choose from, NIST also chairs the group that develops the 
Registry of USG Recommended Biometric Standards.
    Ensuring the high quality of collected biometric data is key to 
improving the use of biometrics. To that aim, NIST pioneered a publicly 
available and interoperable algorithm known as the NIST Fingerprint 
Image Quality (NFIQ). Building on its expertise, NIST also works to 
test algorithms for assessing image quality of iris and faces. For 
example, NIST created the Image Quality Evaluation and Calibration 
(IQEC) program to evaluate quality factors and metrics that impact 
iris-recognition accuracy. IQEC is one of a growing list of NIST 
evaluations for testing and informing biometric standards. Other 
notable tests include the Minutiae Exchange Test (MINEX) which tested 
the interoperability between standard fingerprint template generators 
and matchers; and the first Iris Exchange Test (IREX 1) which tested 
the matchability of standard compact iris image formats.
    When screening travelers, it is important to deploy technology and 
processes that provide the highest level of security while keeping the 
traveling public moving efficiently through checkpoints. To facilitate 
that, MST conducts biometric usability studies that help ensure that 
screening systems are easy, efficient, and intuitive for travelers and 
inspection agents alike. As an example, MST conducted a positioning 
study to determine the best installation of fingerprint readers on 
counters at ports of entry. The results of this study were used by TSA 
in designing checkpoints and placement of the new 10 finger slap 
readers. In addition, NIST has developed and tested language-
independent, international biometric symbols that will help guide 
travelers efficiently and effectively through the biometric acquisition 
process. This work was supported by DHS S&T and products were delivered 
to US VISIT and TSA.

Conformity assessment support for passenger screening equipment

Non-intrusive Inspection Systems

    In collaboration with DHS and standards development committees, 
NIST has enabled the development of performance standards for non-
intrusive inspection systems that cover aviation and transportation 
venues where explosives are screened to include critical 
characteristics such as electromagnetic compatibility, fire and 
electrical safety. These standards facilitate the deployment and use of 
these technologies in environments where passenger/operator safety and 
performance degradation from electromagnetic interference are key 
concerns.
    NIST has also assisted the TSA Atlantic City Technical Center in 
enhancing their technical requirements documents for x-ray inspection 
equipment by identifying appropriate standards references and testing 
requirements.

Biometrics

    NIST assisted TSA in identifying appropriate standards and 
conformity assessment procedures for a Qualified Products List (QPL) 
for Airport Access Control biometrics equipment based on the 
requirements of the Intelligence Reform and Terrorism Prevention Act of 
2004.
    Following a request and funding from DHS, NIST developed a 
laboratory accreditation program for testing of biometrics products to 
support the TSA Airport Access Control QPL program; the NIST National 
Voluntary Laboratory Accreditation Program (NVLAP) will establish an 
accredited lab network for third party testing to standards for 
biometrics equipment. This program is available for use by other DHS 
and other Federal labs--a major step toward providing uniformity of 
testing for commercial cards, readers and other biometrics equipment 
purchased by the Federal and jurisdictional agencies.

Summary

    Members of the Subcommittee, aviation security is an activity of 
national importance. The scientific and technological tools that will 
enhance our security are complex, and major investments are being made 
by DHS to develop and refine these tools for emerging and evolving 
threats. Measurements and standards are essential--both to the current 
generation of security technologies and to next generation S&T 
approaches. NIST scientists and engineers are proud to accept the 
challenges and opportunities presented by our colleagues in the other 
Federal agencies charged with improving our aviation security.
    Thank you for your dedicated efforts to improve the safety of air 
travel for all Americans. 1 appreciate the opportunity to meet with you 
today to discuss the role of national standards in strengthening 
passenger screening and I look forward to answering your-questions.

                     Biography for Dr. Bert Coursey
    Dr. Bert Coursey, Program Manager, Coordinated National Security 
Standards Program, at the Department of Commerce's National Institute 
of Standards and Technology (NIST).
    Bert M. Coursey received his B.S. degree in Chemistry in 1965, and 
the Ph.D. in Physical Chemistry in 1970, from the University of 
Georgia. He served as an Officer in the U.S. Army in 1969-71 in the 
Army Engineer Reactors Group at Fort Belvoir, VA. He joined the 
National Institute of Standards and Technology (NIST) (formerly the 
National Bureau of Standards) in 1972 and for the following 15 years 
worked on radioactivity standards for environmental radioactivity and 
nuclear medicine. More recently he has held management positions in 
radiation dosimetry and served as Chief of the Ionizing Radiation 
Division in the NIST Physics Laboratory. He is a member of the Senior 
Executive Service. He is a recipient of the Bronze (1987) Silver (1997) 
and Gold (2002) Medals of the Department of Commerce, past president of 
the International Committee for Radionuclide Metrology, and past 
president of the NIST chapter of Sigma Xi. He is a Fellow of the 
American Association of Physicists in Medicine. Dr. Coursey has ninety 
publications on radioactivity standards and applied radiation 
dosimetry. Dr. Coursey has served for 30 years as editor of the journal 
Applied Radiation and Isotopes.
    Since March 1, 2003, Dr. Coursey has been on assignment to DHS as 
Director for Standards in the Test & Evaluation and Standards Division 
in the Science & Technology Directorate, Department of Homeland 
Security. In 2004 he was appointed the Standards Executive for the 
Department. His office is responsible for the design and implementation 
of a national program for standards for homeland security. A partial 
listing of the DHS standards projects underway includes performance 
standards and testing and evaluation protocols for personal protective 
and operational equipment, chemical and biological detectors for 
emergency responders, explosives detection equipment, and performance 
standards for information technology (IT) to include credentialing, 
biometrics and cyber security.

    Chairman Wu. Thank you very much, Dr. Coursey. Dr. Hyland, 
please proceed.

 STATEMENT OF DR. SANDRA L. HYLAND, SENIOR PRINCIPAL ENGINEER, 
                          BAE SYSTEMS

    Dr. Hyland. Good afternoon, Mr. Chairman and members of the 
Committee. My name is Sandra Hyland and I served as the study 
director for the 1996 NRC [National Research Council] study 
``Airline Passenger Security Screening: New Technologies and 
Implementation Issues'' as well as vice chair for the 2007 NRC 
study ``Assessment of Millimeter-Wave and Terahertz Technology 
for Detection and Identification of Concealed Explosives and 
Weapons'', technology more commonly known as full-body or 
whole-body scanners. The NRC, National Research Council, is the 
operating arm of the National Academy of Sciences, the National 
Academy of Engineering, and the Institute of Medicine of the 
National Academies, chartered by Congress in 1863 to advise the 
government on matters of science and technology. I would like 
to clarify that I am not representing my employer, BAE Systems, 
but am here to discuss work I have done as an employee and a 
volunteer with the NRC over the past 16 years.
    The FAA and the TSA have sponsored numerous NRC studies on 
various aspects of aviation security in order to obtain expert, 
independent guidance on technology priorities and approaches, 
and we are pleased to continue this positive relationship. My 
testimony today will center on the earlier reports, in 
particular, the committee's discussion related to 
implementation issues associated with new technologies.
    The 1996 NRC Report on Airline Passenger Security Screening 
described not only the technical advances in security screening 
but also the more practical side of that screening. It is 
important to understand that no technology, no matter how 
promising, will work unless it can be successfully implemented 
within the aviation security infrastructure. To this end, the 
committee addressed both the legal issues associated with 
passenger screening as well as the more-difficult-to-quantify 
issue of public acceptance. And although the report was written 
prior to 9/11, it is my opinion that the committee's message 
that it is important to assess the public's reaction to, and 
acceptance of, the screening technologies remains relevant.
    The committee reached its conclusion and developed its 
recommendations based on briefings from the FAA and other 
government entities on their security screening approaches and 
by holding a workshop attended by representative groups, such 
as airport personnel, that would be affected by changes in 
passenger screening approaches. My written testimony includes a 
complete list of workshop attendees.
    During the course of the study, the committee held one 
underlying assumption. The level of inconvenience and invasion 
of privacy that people are willing to tolerate is associated 
with their perception both of the severity of the threat and 
the effectiveness of the screening in averting that threat.
    The 1996 committee identified four issues most relevant to 
the public acceptance of technologies, health, privacy, 
convenience and comfort. People will differ in terms of the 
importance they place on these issues and their level of 
acceptance of passenger screening technologies. Aside from 
considering the reactions new technologies may elicit, TSA will 
have to determine an acceptable level of opposition.
    I will now briefly discuss the areas of concern identified 
by the committee. Health. Issues related to health are more 
related to the perception of health consequences than any 
actual risks. Specifically, the committee noted that while the 
technologies were safe, there are public concerns related to, 
for example, the potential consequences of exposure to the 
radiation used in scanning technologies. It will be important 
then to be proactive in education relating to the minimal 
exposure levels and convey this information so that it is as 
accessible to a wide audience.
    Privacy. Privacy is probably the most significant factor in 
terms of whether the public will accept a new technology. In 
the case of the full body imagers described in the 2007 report, 
there are significant concerns as this technology can display a 
person's anatomical features. As the committee noted in 2007, 
at a resolution of one centimeter, the images have enough 
detail to be embarrassing to many people and can reveal such 
personal information as the use of an ostomy bag or the 
presence of breast implants. It will be important then that if 
this technology is adopted, it is done in such a way that it 
acknowledges the public's concerns about privacy and carefully 
balances them against the technology's benefits. In 1996, the 
committee noted that this technology would most likely only be 
accepted if the perceived threat level were high and the 
technology proven to be effective at averting the threat, but 
that would be difficult to quantify just how high that threat 
would need to be. In my opinion, given the reaction to the to 
the attempted bombing of the Northwest Airlines Flight on 
Christmas, this may be the time to revisit the question of the 
effectiveness of this technology in airport use, and whether 
given the threats the flying public would accept it.
    The 1996 report also identified steps that may improve 
public acceptance of body imaging technologies and trace 
explosive detection, both of which are in my written testimony.
    Convenience is largely a matter of time. The 1996 committee 
noted that screening technologies that impose delays will also 
have problems with public acceptance.
    Issues related to comfort arise when a technology requires 
that the person being screened to be in close contact with 
either with the equipment or another person or a technology 
that requires a person to be in a confined space.
    While there are ways to minimize this discomfort, it can 
lead to a trade-off with technological effectiveness. For 
example, using airflow to collect samples for explosives 
detection may ameliorate the concerns of a passenger that does 
not want to be touched, but may not be as effective as direct 
contact.
    The 1996 committee found that there had been very little 
study of the public acceptance of screening technologies, and 
when this topic was revisited relative to the committee's work 
on the whole-body imagers in 2007, that had not changed. The 
committee identified a number of intangibles that go into the 
public's willingness to accept inconvenience, and I have 
provided a description of those in my written testimony.
    However, the committee stated that there is no better way 
to gauge public acceptance of new technologies screenings than 
field tests. The committee strongly encouraged that in addition 
to performance data, information related to the acceptance of 
this technology be collected. People find it difficult to 
provide reactions to abstract, hypothetical situations compared 
to here-and-now machines. So the most accurate reading of the 
public's reaction to a scenario will be by conducting testing 
as closely as possible to the proposed implementation.
    I would like to conclude my remarks with some personal 
views based on the input from the participants in the 
committee's workshops. Several representatives from airport 
operations and air carrier groups were concerned that the FAA 
would impose new screening technology without sufficient 
consideration of passenger acceptance. Air carriers are acutely 
aware that travelers make trade-offs, and increasing the burden 
on passenger security screening can potentially push those 
trade-offs away from air travel. Including the air carriers, 
airport operators, and other industry representatives in the 
assessment and deployment of new passenger screening technology 
will help ensure the successful implementation.
    Thank you for the opportunity to testify today, and I would 
be pleased to address any questions.
    [The prepared statement of Dr. Hyland follows:]
               Prepared Statement of Dr. Sandra L. Hyland
    Good afternoon, Mr. Chairman and members of the Committee. My name 
is Sandra Hyland and I served as the study director for the 1996 NRC 
study Airline Passenger Security Screening: New Technologies and 
Implementation Issues as well as vice chair for the 2007 NRC study 
Assessment of Millimeter-Wave and Terahertz Technology for Detection 
and Identification of Concealed Explosives and Weapons (the form of 
imaging more commonly known as full-body scanners). The NRC--National 
Research Council--is the operating arm of the National Academy of 
Sciences, National Academy of Engineering, and the Institute of 
Medicine of the National Academies, chartered by Congress in 1863 to 
advise the government on matters of science and technology. I would 
like to clarify that I am not representing my employer, BAE Systems, 
but am here to discuss work I have done as an employee and a volunteer 
with the NRC over the past 16 years.
    The FAA and, following the events of September 11, 2001, the TSA 
have sponsored numerous studies with the National Research Council in 
order to obtain expert, independent guidance on technology priorities 
and approaches, and we are pleased to continue this positive 
relationship. My testimony today will center on the earlier reports, 
and in particular, the committee's discussion related to the 
implementation issues associated with these technologies.
    The 1996 NRC Report, Airline Passenger Security Screening: New 
Technologies and Implementation Issues, described not only the 
technical advances associated with security screening, but also the 
more practical side of that screening. It is important to understand 
that no technology, no matter how promising, will work unless it can be 
successfully implemented within the current aviation security 
infrastructure. To this end, in the 1996 report, the panel addressed 
both the legal issues associated with passenger screening--most of 
which are related to the concepts of search, the expectation of 
privacy, and implied consent--as well as the more-difficult-to-quantify 
issue of public acceptance.
    Although this report was written prior to the events of September 
11, 2001, and during a time when the internet was in its infancy and 
``blogosphere'' was neither a word nor a concept, it is my opinion that 
the panel's underlying message--that it is important to assess the 
public's reaction to, and acceptance of, the screening technologies--is 
still relevant. Critical differences between the passenger screening 
approach of today compared to that in 1996 include the federalization 
of the screening workforce and the assumption by the U.S. government of 
the security screening operations. Compared to the ``arms-length'' 
responsibility the FAA had for passenger screening in 1996, the TSA is 
now mostly directly responsible for the purchase, deployment, and 
operation of security screening equipment and for the security 
screening personnel. This change in the role of the U. S. government in 
passenger screening does not obviate the need for TSA to assess the 
public acceptance of a specific security screening approach to strike a 
balance between security and a robust air travel business.
    In their review of some specific potential passenger screening 
scenarios, the panel relied on this underlying assumption: people 
relate the level of inconvenience and invasion of privacy that they are 
willing to tolerate to their perception of the severity of the threat 
being averted and the effectiveness of the screening efforts at 
averting that threat. In airline passenger security screening, 
``people'' refers not only to the passengers themselves, but to all the 
other air carrier and airport personnel exposed to the screening 
process--including flight crews and air carrier and airport employees 
who work inside the sterile area of the airport.
    The panel developed their recommendations through briefings from 
the FAA on potential technologies for screening passengers and from 
other government entities on their security screening approaches, and 
by holding a workshop attended by representatives of groups that would 
be affected by changes in passenger screening approaches. These groups 
included those representing airport management, consumer interests, and 
air-carrier employees. I have included a complete list of workshop 
attendees at the end of this document.
    In 1996, the panel identified four categories of issues most 
relevant to the public acceptance of these technologies:

        <bullet>  health

        <bullet>  privacy

        <bullet>  convenience, and

        <bullet>  comfort

    People will differ in terms of the importance they place on the 
various concerns, and will also differ in their level of rejection of 
passenger screening technologies. Aside from considering the types of 
reactions new technologies may elicit, TSA will have to determine an 
acceptable level of opposition.
    I will now briefly touch on each of the areas of concern identified 
by the panel.

Health

    Issues related to health are more related to the perception of 
potential health consequences than they are to any actual risks. 
Specifically, the panel noted that while the technologies themselves 
were safe, there are public concerns related to, for example, the 
potential consequences of exposure to the radiation used in active 
scanning technologies. For this reason, it will be important to be 
proactive in education related to the minimal exposure levels--and it 
will be important to convey this information in such a way that it as 
accessible to the widest audience.

Privacy

    Issues related to privacy are probably the most significant in 
terms of whether or not the public will accept a new technology. For 
example, in the case of the full body imagers described in the 2007 
report on millimeter-wave and terahertz technology, there are 
significant concerns when it comes to technology that can display a 
person's anatomical features.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As the committee noted in the 2007 report related to this 
technology, even images with a resolution of 1 cm have significant 
detail to be embarrassing to many people, as can be seen in the example 
image shown above. These concerns may be exacerbated when the person 
being screened is a member of a culture for which modesty is important. 
Concerns also exist relative to the technology's potential to reveal 
such personal information as the use of an ostomy bag, or the presence 
of breast implants. For this reason it will be important that should 
this technology be adopted, it is done in such a way that the public's 
concerns about privacy are acknowledged and carefully balanced against 
the benefits of this technology's use. At the time the report was 
written, the panel noted that this technology would most likely only be 
accepted if the perceived threat level were high and the technology 
effective at averting that threat, but that quantifying just how high 
the threat would need to be would be difficult. In my opinion, given 
the reaction to the attempted bombing of the Northwest Airlines Flight 
on Christmas, this may be the time to revisit the question of the 
effectiveness of this technology in identifying this kind of threat in 
actual airport use, and the level of threat at which the flying public 
would accept this technology as a primary screening approach.
    The 1996 report identified five steps that might be taken to 
improve public acceptance of body imaging technologies:

        <bullet>  masking portions of the displayed image or distorting 
        the image to make it appear less ``human"

        <bullet>  using operators of the same gender as the subject to 
        view the images

        <bullet>  ensuring that images are displayed in such a way as 
        to be viewable only to the screener

        <bullet>  providing guarantees that images will not be 
        preserved beyond the brief screening procedure, except when 
        questionable objects are detected, and

        <bullet>  offering alternative screening procedures-such as a 
        ``pat down'' for those who object to imaging.

    The committee noted in its 2007 report that many of these 
approaches have already been implemented in other countries. In 
particular, a field trial of one imaging system at Gatwick Airport in 
the United Kingdom found that the public response was favorable, and 
that the system was also successful in detecting concealed metal and 
ceramic weapons.
    A second category of technology that has the potential to raise 
privacy concerns is that of trace explosives detection. As other 
technical experts have already likely explained, this technology allows 
for a sample to be taken from a subject (either by walking through a 
portal or by means of a hand-wand device). This sample is then analyzed 
for the presence of a chemical signature that would indicate the 
subject had been in contact with explosive material.
    In this case the privacy concerns stem either from the potential 
for disclosure of information the passenger would rather be kept 
private (for example, the use of nitroglycerin for a heart condition), 
or the aversion that some people have to being touched. As with current 
``pat down'' screenings, some of this can be ameliorated by ensuring 
that the person is screened by someone of the same gender and out of 
the immediate public view.

Convenience

    Convenience is largely related to time. In 1996, the panel noted 
that screening technologies that impose delays will also have problems 
with public acceptance.
    Speaking from my own perception rather than as a member of the 
committee, the public has grown to grudgingly accept the need to arrive 
at the airport well-ahead of their anticipated departure to accommodate 
not only longer lines at security screening, but also the uncertainty 
in how long that screening might take. However, there may also have 
been some backlash as, for example, train ridership has gone up, with 
Amtrak recording record ridership each year from 2002 through 2008.

Comfort

    Issues related to comfort often arise when there is a technology 
that will require the person being screened to be in close contact 
either with the equipment or with another person. In some cases, 
comfort issues can also arise for technology that will require a person 
to be confined space--such as some trace explosives detection equipment 
and full body scanners do. In particular, trace detection portals--
which also involve directed airflow--have to potential to raise comfort 
issues.
    While there are ways to minimize this discomfort, in some cases 
this may result in a trade-off with technological effectiveness. For 
example, the use of airflow to collect samples for explosives detection 
may ameliorate the concerns of a passenger that does not want to be 
touched, but may not be as effective as the sampling that comes from 
direct contact.
    In addition to reviewing potential public acceptance of new 
screening technologies, the panel noted that current screening 
technology could be made more effective by a better integration of the 
screening personnel into the system. The inability to maintain a high 
level of operator performance is a principal weakness of existing 
passenger screening systems and a potential weakness of future systems. 
Improving current technologies and developing new technologies both 
require determining the optimum integration of technological 
development and human operators into the overall security system.
    To ensure an effective screening system, it is imperative to assess 
the public acceptance of technology and balance that against its 
benefits before making any decisions about the course to be used. The 
final part of my statement will review the ways in which the panel 
discussed how that may be done.

Assessing Public Acceptance

    In 1996, the panel found that there had been very little work done 
to study the public acceptance of screening technologies, and when this 
topic was revisited relative to the committee's work on the whole-body 
imagers in 2007, that had not changed. Yet, it's clear that the public 
perception and acceptance can have a large impact on the behavior of 
travelers (as I noted with increased use of passenger rail in the 
northeast corridor).
    Additionally, the panel identified a number of intangibles that go 
into the public's willingness to accept inconvenience, including:

        <bullet>  the nature, extent, and likelihood of the actual 
        threat and the associated risk (Certainly, this changed between 
        1996 and September 11th)

        <bullet>  the degree of understanding and the perception of the 
        actual threat and the associated risks

        <bullet>  personal beliefs, habits, and cultural mores

        <bullet>  the physical, mental, and emotional state of an 
        individual

        <bullet>  the extent and degree of public understanding of the 
        screening objectives, technology, and procedures

        <bullet>  public perception of the effectiveness of the 
        screening system

        <bullet>  public understanding and perception of the health 
        risks associated with the screening system, and

        <bullet>  the nature and frequency of air travel.

    The panel also identified two ways in which the public acceptance 
of this technology might be measured:

        <bullet>  by surveying the population most likely to be 
        affected by passenger screening, which has the potential to be 
        of limited value due to the self-selective nature of the survey 
        and the likely introduction of sampling error, and

        <bullet>  by identifying similar or analogous circumstances in 
        the past and studying available information related to the 
        public reaction to-or acceptance of-these circumstances. In 
        this case, reaction to metal detectors and baggage scans might 
        provide insight.

    However, the panel stated that there is no better way to gauge 
public acceptance of new screening technologies than by way of field 
tests. For this reason the panel strongly encouraged that in addition 
to performance data, information related to the public acceptance of 
this technology also be collected.
    I would like to conclude my remarks with some personal views 
regarding the input from the participants in the panel's workshops. 
Many of the representatives from airport operations and air carrier 
groups expressed the concern that the FAA would impose new screening 
technology without sufficient consideration of passenger acceptance. 
Travel by air is a largely voluntary activity--people can choose to 
take the family to Disney World by air, or they can drive to a nearby 
attraction. Even business people have a wide variety of tools that can 
help them minimize air travel, including web-based meetings and other 
internet-enabled communications. Air carriers are acutely aware that 
travelers make these types of trade-offs regularly, and increasing the 
burden of passenger security screening can potentially push those 
trade-offs in favor of travel by car, train, or bus. Including the air 
carriers, airport operators, and other industry representatives in the 
assessment and deployment of new passenger screening technology is 
likely to be the best way to ensure the successful implementation of 
new security technologies.
    Thank you for the opportunity to testify today. I would be pleased 
to address any questions the subcommittee may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   Biography for Dr. Sandra L. Hyland
    Sandra Hyland, Ph.D. has 25 years experience in program management 
in both for- and nonprofit organizations. She is currently a senior 
semiconductor engineer at BAE systems. Prior to that, she served in 
various positions at Tokyo Electron. She has also served as a staff 
officer at the National Research Council's National Materials Advisory 
Board and an advisory engineer at IBM. Dr. Hyland has a Ph.D. in 
materials science and engineering from Cornell University, an M.S. in 
electrical engineering from Rutgers University, and a B.S. in 
electrical engineering from Rensselaer Polytechnic Institute. Dr. 
Hyland is a member of the American Vacuum Society, Electrochemical 
Society and the Institute of Electrical and Electronic Engineers. She 
is a fellow of the Society of Women Engineers, and previously served as 
vice chair of the National Research Council Committee on Technologies 
for Transportation Security.

    Chairman Wu. Thank you very much, Dr. Hyland, and thank you 
for your contributions to the information gathered by this 
committee.
    It is now in order to open for our first round of 
questions, and the Chair recognizes himself for five minutes. 
Before we even get to the question of response or lack of 
response to the 1996 and 2007 reports, I want to ask the panel 
a threshold question of whether our concern about public 
acceptance is real or whether it is theoretical. Have you 
actually determined that the traveling public, that is 
passengers at airports, are actually concerned about the things 
we think they are concerned about? The reason why I am saying 
this is because I spent four hours knocking on doors in 
Tualatin, Oregon, this past Saturday. I got an earful, but I 
think that the earful that I got in that neighborhood is very 
different from the earful that I would get in another 
neighborhood in my congressional district. Choice of sample and 
what you ask is absolutely crucial. Are we speculating about 
passenger concern or do we have direct evidence that these are 
actual concerns of the flying public? Whoever wants to go 
first.
    Dr. Hyland. Thank you. That is a question that the 1996 
panel struggled with quite a bit. We had experts in how people 
make decisions to do things they know are risky, like smoking 
and so----
    Chairman Wu. Well, did they ask the traveling public what 
they thought?
    Dr. Hyland. In that case, we recommended that the traveling 
public be asked, but the question----
    Chairman Wu. Have they been asked?
    Dr. Hyland. Not as far as I know, but the most important 
thing----
    Chairman Wu. This town is filled with pollsters, right? I 
mean, it is just filled with pollsters. And I am not 
necessarily recommending that, but it seems like--you know, you 
don't go and sell cookies in the market without doing a focus 
group and sampling the public and so on, and we are deploying 
millions of dollars of equipment, we are betting lives on 
airplanes.
    Dr. Hyland. Yes, I would like to----
    Chairman Wu. Have we polled? Have we asked the traveling 
public? Have we actually asked the question?
    Mr. Buswell. I don't know.
    Chairman Wu. Dr. Albright?
    Dr. Albright. I don't know, either.
    Chairman Wu. Dr. Coursey?
    Dr. Coursey. I don't know, either.
    Chairman Wu. So we are sitting in this hearing room 
engaging in rank speculation about a problem which may not 
exist? I mean, you read about it in the newspaper, but they are 
not citing their statistical evidence. I asked this question of 
staff several days ago, and I was shocked that they didn't have 
an answer and I am even more shocked that you don't have an 
answer because you all are in charge of our national research 
effort. And how do you know that we have a problem without 
having asked the question?
    Mr. Buswell. Mr. Chairman, if I may, I think when it comes 
to public acceptance of these kinds of technologies, aviation 
securities, passenger screening technologies being one example, 
we have to assume----
    Chairman Wu. Why do you have to assume?
    Mr. Buswell. Because it is prudent to do so----
    Chairman Wu. Whoa. Look, you can assume that the sky is 
blue, you can assume the sun rises in the east, but I think 
that Mr. Smith and I would agree that it is dangerous to make 
very many assumptions and bet a whole lot on that.
    Mr. Buswell. I know, but if I may finish, sir, we have to 
assume that there could be public acceptance issues.
    Chairman Wu. Well, the question is why? I mean, what makes 
it safe to make that assumption? And it is a simple thing to 
ask the question. I mean, all you have to do is throw it in a 
battery of questions and then also ask the question, have you 
flown in the last 12 months.
    Mr. Buswell. Sure. There are certainly scientific----
    Chairman Wu. And if the answer is yes, the follow-up 
question is, how many times have you flown. And then you do a 
simple read of the cross-tabs and you realize, I mean, you have 
easy data on crossing the number of times flown versus their 
attitudes about screening technology, right?
    Mr. Buswell. Sure. Absolutely. And there are scientific--
    Chairman Wu. So why----
    Mr. Buswell. --approaches----
    Chairman Wu. --hasn't that be done?
    Mr. Buswell. I am not saying that it hasn't, but I don't 
know that. We haven't done it in S&T that I am aware of.
    Chairman Wu. You know, as far as I know, I am the only 
person who has asked that question thus far. The staff was 
surprised, and they didn't have an answer. You all don't have 
an answer. This is a really quick thing to do, you know. Like 
if this were a campaign and this were my campaign, I would ask 
my pollster to ask that question, and I would have data 
tomorrow. They run it by telephone tonight.
    Mr. Buswell. Mr. Chairman----
    Chairman Wu. So the follow-up question is when are you 
going to get it done?
    Mr. Buswell. Well, I will take that for action, sir. And 
let me go to----
    Chairman Wu. Give me a date. Give me a date.
    Mr. Buswell. Let me go to TSA and find out what they have 
done, and then I will get back to you with a specific date as 
to how we are going to approach this. They may have data that I 
am not aware of.
    Chairman Wu. You know, in what we do, it is kind of a 
winner-take-all kind of thing, and you know, you live or die by 
the data that guides you. And I am not necessarily recommending 
that anybody else live that way. But the thing is, you all are 
engaged in a very, very important enterprise, the public safety 
is at stake. A whole economic sector, a whole transportation 
sector is at stake. And the trust of the public in what their 
own government does is at stake, and you are telling me that 
one of the most fundamental questions to our collective 
knowledge has not been asked. So I am encouraging you in the 
strongest way possible to either find out that we have the data 
and get it here or to get that battery of questions asked and 
get it here. And it shouldn't take very long because Mr. Smith 
and I and every other elected up here knows that we can get an 
answer to questions like that by midnight tonight and have a 
rough analysis by 8:00 a.m. tomorrow and have the thorough 
analysis within a day after that. That is the threshold 
question. I will get to the underlying question in the next 
round.
    Mr. Smith, you are recognized for five minutes.
    Mr. Smith. Thank you, Mr. Chairman. Several of you touched 
on the issue of passenger safety when interacting with the 
radiation emitted by screening technologies. I was wondering if 
you could address the radiation levels currently faced by 
airline passengers and how much increased exposure they can 
expect in the future. Anyone wishing to respond?
    Mr. Buswell. Yes, sir. I would be pleased to give you some 
numbers there. Dr. Coursey can pipe in, too, because I know 
there are American National Standards Institute [ANSI] 
standards on the radiation exposure, general radiation exposure 
from things like screening technology. So to the extent that he 
wants to comment on that, he can.
    So let me put some things in perspective with regard to 
radiation doses to start with, just so we are all sort of 
calibrated and we are speaking the same because to me, micro-
rem doesn't mean very much unless you understand what you are 
talking about.
    So a low-dose dental X-ray, the dose that you get is about 
four million micro-rem, or about four rem of exposure. The 
average annual--I grew up in Colorado, at high altitude. The 
average annual exposure that you get at high altitude just from 
the sun, really, is about 4,000 micro-rem. So about 1/10 of 
what a dental X-ray would be. In one hour on a commercial jet, 
your dose is about 1,000 micro-rem. In one screening by a back-
scatter X-ray body scanner, the dose is about 6 micro-rem. So 
in other words, if you take a flight from New York to Los 
Angeles, the dose that you receive would be about 1,000 times 
what you would get while you are on the airplane compared to 
what you would get standing in the whole-body imaging passenger 
screener.
    And Dr. Coursey, correct me if I am wrong, but I think the 
ANSI standard is 25,000 micro-rem per year. So 6 micro-rem is 
below the threshold that we even have to keep track of how many 
times you go through the screening process in the airport, if 
that puts some perspective on the exposure.
    Mr. Smith. Anyone else? Dr. Coursey?
    Dr. Coursey. Yes. I spent most of my career at NIST working 
in radioactivity and the radiation physics group there. So NIST 
has been involved for many years in working with the regulatory 
agencies on dose health effect relationships. But the NIST 
measurement sciences deal with how accurately can you measure 
the radiation. The health effects aspects are regulated by the 
Food and Drug Administration [FDA], and OSHA [Occupational 
Safety and Health Administration] and the Nuclear Regulatory 
Commission. So, the federal guidance in this country for health 
effects comes from the National Council on Radiation Protection 
and Measurements. And those of us in the Federal agencies 
follow that guidance. So, this is not guidance coming out of 
NIST or TSA. There is an American National Standard ANSI N4317 
which was developed. And, I think this is a great example of 
the cooperation here because it had four members from NIST, 
seven from different parts of DHS, two from FDA who actually 
participated in writing that standard. And, that is the 
standard for the safety aspects of the deployment of these X-
ray scanners.
    I might also point out that a lot of folks are pushing for 
the millimeter-wave scanners, because there are essentially no 
radiation affects associated with the millimeter-wave.
    Mr. Smith. Anyone else wishing to comment? If not, that is 
fine.
    Thank you, Mr. Chairman. I will wait for the next round.
    Chairman Wu. Thank you very much, Mr. Lujan, five minutes.
    Mr. Lujan. Mr. Chairman, thank you very much, and thank you 
to everyone that is here today.
    As we talk about these technologies, I appreciate the fact 
that I read about MagVis technology that was developed at the 
Los Alamos National Laboratories discussed in a few of the 
testimonies. And more than just MagVis, is the ultimate 
objective for our work with Homeland Security is to get the 
Department to establish a longstanding running relationship 
between the NNSA laboratories and the Department of Science and 
Tech Directorate.
    Currently I think that you work with them from time to time 
when there is an issue specifically to identify such as if 
there is a terrorist threat that they may use liquid 
explosives, and what will the damage be to the airplane as 
opposed to how can we make sure that we are getting that 
molecular footprint so that we can identify and prevent any 
liquids that even have a notion of being used to move forward 
in that way.
    So with that being said, Mr. Buswell, although we focused 
today on passenger screening, I have been impressed with the 
briefings I have received from the scientists and researchers 
associated with the MagVis technology, proven technology that 
has already been demonstrated in a pilot. Your predecessor, 
Under Secretary Cohen, saw the pilot demo at the Albuquerque 
Sunport. Can you describe what DHS's plans are for the rapid 
implementation of this proven technology and what DHS's plans 
are for further applying the National Labs to this challenge, 
specifically, the NNSA facilities?
    Mr. Buswell. Yes, sir. I would be pleased to, and you know, 
MagVis is one of those emerging success stories I think from 
our partnership with the National Laboratories. For those who 
may not be familiar with the technology, MagVis is short for 
magnetic visibility, and it is looking at the possibility of 
using technology similar to a hospital MRI machine to look for 
and not only find but identify liquids. The difference would be 
the magnetic fields in MagVis are at a much lower power which 
would allow operation without the restrictions and high costs 
of traditional MRIs. Getting back to the footprint issue at the 
screening sites, as Mr. Lujan said, we demonstrated this 
technology in Albuquerque a year ago last December, I guess. In 
December of '08 was that demonstration. It was very successful 
in identifying dangerous liquids in a small bottle among non-
hazardous liquids in the standard TSA-size screening bowl that 
you would put your coins or wallet into.
    So now the next step in this risk management development is 
can we do that with an entire tray size application? If that is 
successful, can we be successful in doing that with the regular 
baggage, you know, full baggage, carry-on baggage size?
    So we are looking at this in a phased increment, and we are 
confident enough now that the technology has great potential 
for success that we are looking for commercial partners because 
at the end of the day, the commercial partners are who we need 
to get these things deployed en masse. So it is an excellent 
success story.
    And so let me talk a little bit more about your broader 
question of partnership with the National Labs, and I will go 
into a little more detail than I did just in my oral comments 
on this DHS/DOE aviation security partnership.
    We have recently established this, it is off and running. 
It is going to provide a senior-level Under Secretary level 
governance mechanism to focus the utilization of the National 
Labs on this very important problem. Right now we are looking 
at three--you can do all the governance you want, but if you 
don't get down to the working groups and the people that 
actually know how to bring solutions to the table, you are 
never going to get anywhere.
    We are looking at three areas to focus on. One, as Dr. 
Albright mentioned, is this systems analysis of aviation 
security, both from an aviation security as a system of systems 
and then from an engineering standpoint. When you get to the 
passenger checkpoint screening for example, what is the optimal 
configuration? What are the trade-offs among the technologies? 
The National Labs, with their modeling capabilities, are 
uniquely positioned, I think, to help us there. That effort 
will be co-led by Sandia National Laboratory.
    Mr. Lujan. Mr. Buswell, if I may, and Mr. Chairman, I want 
to make sure we get a chance to explore these a little bit 
going forward with some other questions, but one thing that I 
just want to point out is, one thing that we learned from the 
failed attempt on Christmas Day of this last year is that metal 
detectors didn't do the job. And there has been an investment 
and commitment going forward with metal detectors. We need to 
make sure that we are looking at these technologies to be able 
to identify these materials, that you understand how we take 
into consideration the complexities associated with chemistry 
and the value of getting that molecular footprint so that way 
we can prevent them from getting forward, from moving forward 
and from identifying people that have them on their body, on 
their persons, or on materials in a way that is very safe to 
the individual and the traveling public.
    And Mr. Chairman, I will pursue that line of questioning as 
we go forward as well, but I certainly hope that we can get to 
that point. Thank you, Mr. Chairman.
    Chairman Wu. Thank you very much, Mr. Lujan, and we will 
return for further rounds of questions.
    Mr. Garamendi, please proceed, five minutes.
    Mr. Garamendi. Thank you very much. Was it 25,000 micro-
rems a year?
    Mr. Buswell. Yes, that is the----
    Mr. Garamendi. And it is 1,000 a flight across the country?
    Mr. Buswell. That is right.
    Mr. Garamendi. We better stop going home, Mr. Wu.
    Mr. Buswell. It is actually 1,000 per hour at altitude.
    Mr. Garamendi. We have already----
    Mr. Buswell. I hope you have short flights.
    Mr. Garamendi. I am not going home this weekend. The 
question here is what is the status of explosive detection? Dr. 
Albright, you discussed this in generality, do we really--how 
long do we have to wait? What is the status or will it ever be 
possible?
    Dr. Albright. Okay. So that is a great question. I think it 
was pointed out by Mr. Lujan, to date, most of our technology 
at passenger checkpoints has revolved around metal detection. 
The thing that you walk through is looking for metals, and that 
may have made a lot of sense in the day when we were worried 
about people bringing guns on board aircraft, but it doesn't 
check for explosives. That is just a fact of life.
    Even with the carry-on baggage systems that we have 
deployed, without going into classified details, they have 
utility in detecting explosives, but they are certainly not at 
the performance point that I think anybody, either any of you 
or anybody here sitting at the table, would like.
    So we have tried to move on to other ideas. Whole-body 
imaging is certainly one that has been put in play. By the way, 
as an aside, that was technology that was developed at Pacific 
Northwest National Laboratory and was then transitioned into 
the private sector. The difficulty with explosives at the end 
of the day is that they are--there are two problems. One is 
that they are not volatile. That means they don't put out a lot 
of vapor, which is the kind of thing you would detect in a 
remote environment. You would sniff for the explosive. And they 
are not very volatile, and frankly for obvious reasons, you 
would not want to have an explosive that rapidly turns into a 
vapor and mixes with the atmosphere. That would not be a very 
stable environment to operate in. So they tend to be very, very 
hard to detect. You have to actually detect the solid somehow, 
which is, by the way, the basis of those scanning systems that 
they use in secondary inspection.
    The second difficulty is confusers. You have a lot of--many 
of you have probably gone through secondary, have been scanned, 
had your luggage hand-swiped, and it has come back positive. My 
guess is the first question you were asked was, did you play 
golf today because if you did, you picked up possibly 
fertilizer and that will sometimes confuse these systems. And 
there are lots of confusers. For the checked baggage systems, 
for example, it is a well-known fact that peanut butter is 
something that looks very much like an explosive to those 
systems.
    So those kinds of issues, the confusers are a real problem. 
And then finally, what has changed a lot, particularly over the 
last few years, is the plethora of explosives that we have to 
deal with. You know, we originally had a fairly short list of 
explosives that we were concerned about in aviation security 
and at the checkpoints. Now there are dozens that show up on 
the internet that have to be or are in books that people sell. 
You can get them off of Amazon, that tell people how to make 
homemade explosives, and the list is fairly long and getting 
longer, and these have to be evaluated and I think as was 
pointed out, the signatures then, what they look like to our 
chemical systems, to the whole-body imagers, to this collection 
of sensor systems that we are trying to deploy, that all has to 
be worked through. This is again an enduring, long twilight 
struggle that we are going to be faced with.
    So anyway, the point is that the current status is not what 
we would like it to be, but it is a very, very hard problem, 
but nevertheless, there is a lot of ideas for how to improve, 
you know, a variety of technologies.
    Mr. Garamendi. If I might, I won't have time to go into all 
these other questions, but it seems to me that has this whole 
explosive thing has really gone to the dogs and that is where 
we are, rely upon dogs?
    Dr. Albright. Well, you know, but here is the thing. 
Actually, that came up after the December 25 incident, and 
there are two issues. The first is there aren't enough dogs. 
These dogs have to be trained----
    Mr. Garamendi. Presumably we could deal with that issue.
    Dr. Albright. Well, you know, it takes a long time to train 
these dogs. I think there are maybe three sites in the country, 
maybe four, I have forgotten the exact number, that actually 
train these dogs. They get tired easily. They are not 
necessarily as reliable as people think they are. So when you 
work all that through----
    Mr. Garamendi. Do OSHA standards apply to dogs?
    Dr. Albright. Yeah, we will have to get NIST to go evaluate 
dogs for us. But people have been working very hard on 
artificial dog noses, for example, and none of these ideas have 
particularly worked out particularly well.
    Mr. Garamendi. I am going to just open two other subjects, 
and my five minutes is up. One is on the social science side of 
it. We were talking earlier about social science. But it seems 
to me that the visual screening, that is to look at somebody 
and say, well, maybe we will take another look at this 
individual has a role, and there are those in other countries 
that actually do that to a great extent. And I would be 
interested in the social science piece of that, does that 
really work. And the final question that I would like to get to 
is that the Christmas issue really was more about databases, 
was it not, and the compatibility and the interaction of 
databases. And the question arises as to computer science and 
the ability for computer science to deal with the multiple 
databases and integrating them.
    Mr. Chairman, thank you.
    Chairman Wu. Thank you very much, Mr. Garamendi. Before I 
get onto my next set of questions, I want to finish up with 
some further information on the last question.
    After my discussion with Committee staff two days ago, the 
Cracker Jack staff went into the archives and found two 
surveys, both done after this Christmas incident and both 
released January 11, just a few days ago. And one survey by CNN 
finds that full-body scanners should be used, 79 percent, 
should not be used, 20 percent, no opinion, 2 percent. But 
there are no backup numbers on that, so we don't know what the 
opinion of the traveling public is as opposed to a non-
traveling sample. And the Gallup/USA Today organization found--
well, there are a variety of findings here. The majority, 67 
percent, say they would not personally be uncomfortable with 
undergoing such a scan. That is the full-body scan that we are 
talking about. Close to half, 48 percent, saying they would not 
be uncomfortable at all. Ten percent say they would be very 
uncomfortable if subjected to such a search, and I have to add 
that the prior preferences were comparing full-body scan versus 
a complete pat-down. And there is a difference between men and 
women, and what they found is also in their sample--let me take 
a moment here to find the sample information because I think it 
is very important to our consideration--results based on the 
total sample of National adults, 95 percent confidence. Results 
based on a sample of 542 adults who have taken two or more air 
trips in the past year. Maximum margin of error is plus or 
minus five percent, but there are no data about how the 
frequency of flying correlates with the opinions about 
intrusiveness, and in the CNN survey, the frequency of flying 
was really quite disparate. About 50 percent flew either 
frequently or occasionally, and the other 50 percent flew never 
or rarely. And so you can fit all the frequent passengers into 
the don't-screen-me category, or you can fit the 50 percent 
that flies into the I-don't-care category. And I think it is 
pretty important to determine what it is, whether we are 
addressing a real problem or not. So Mr. Buswell, I guess 
before you come back you are going to have that information 
broken out for us, aren't you?
    Mr. Buswell. Yes, sir. I will take that for action. Thank 
you.
    Chairman Wu. Terrific. Thank you very much. Now, let us 
assume that this is a problem, that public acceptance is a 
problem. The 1996 National Academies Study on Airline Passenger 
Screening discussed the importance of understanding the health, 
privacy, convenience and comfort impacts of screening 
technologies, and the report eleven years later, the 2007 
report, said very little work had been done in these areas. And 
I want to ask first our three witnesses from NIST and DHS and 
the labs, why have these recommendations been in one sense or 
another ignored by your respective agencies in doing your work?
    Mr. Buswell. Thank you, Mr. Chairman. I guess I would 
respectfully disagree that the recommendations have been 
ignored, and I think there are a number of recommendations that 
in fact have been adopted. For example, the recommendation that 
we consider privacy filters to mask portions of the images, 
whether those be private areas of the body or faces so that 
those wouldn't be displayed together. The fact that images are 
not stored. Images of the traveling public are not stored, 
again a recommendation of that report which was adopted. 
Putting the screener out of sight of the individual was one of 
the recommendations, and that was adopted by TSA. The fact that 
automatic target recognition which is in fact our highest 
resource priority for TSA would allow images not to be viewed 
at all unless in response to an alarm is one of those things 
that we are pursuing. And I think the most important 
recommendation that we have adopted is the recommendation to 
assess as early in the development process as possible the 
potential for community resistance to the implementation of 
some of these technologies. We have in place a formal process 
to understand and incorporate community perceptions in the 
development and deployment of critical technologies. We call it 
the Technology Acceptance and Integration Program, and they 
look at things like privacy, civil rights, perceptions, whether 
that be intrusiveness or invasiveness. They look at convenience 
and comfort, complexity, usability and the perception of threat 
risk or safety.
    Chairman Wu. Mr. Buswell, before my time expires, I am 
going to give Dr. Hyland an opportunity to comment because you 
know, I am a generalist. I work here in a legislative body. It 
is one thing to disagree with me, but Dr. Hyland's written 
testimony states in 1996 the committee found that there had 
been very little work done to study the public acceptance of 
screening technologies, and when this topic was revisited 
relative to the committee's work on the whole-body imagers in 
2007, that had not changed.
    Dr. Hyland, would you care to comment about how much work 
has been done on the public acceptance front?
    Dr. Hyland. Certainly. I would like to say that when we 
said that in 2007 we found no updates, so as Mr. Buswell says, 
perhaps there is information being done internally at DHS and 
TSA that was not in the published realm. So we may have not 
seen it, but it was of concern to us that there was nothing in 
the publications that we would see that had addressed these.
    Chairman Wu. Dr. Coursey?
    Dr. Coursey. Yes, you wouldn't expect NIST to have a large 
role in this because we are basically in the measurement 
science, but we do have a very effective group in usability in 
our information technology.
    Chairman Wu. I am never surprised at what NIST is involved 
in. I can't think of a single area that NIST is not involved 
in.
    Dr. Coursey. This is a very exciting project that is 
partially supported by DHS S&T, and that is to look at the 
usability of fingerprint readers as passengers are approaching 
a checkpoint. So, this is work funded by S&T that is now being 
used by US-VISIT. But it basically comes to the idea of 
affordance. When you come up to a piece of equipment, do you 
instinctively understand what you are being asked to do, or do 
you have to have some long instruction in doing that?
    So I think the public acceptance to some extent will hinge 
on these usability studies. This one particular one was very 
helpful for US-VISIT.
    Chairman Wu. Did you ever compare a Mac with an IBM? Just 
kidding. Mr. Lujan?
    Mr. Lujan. Mr. Chairman, thank you very much and just to 
pick up a little bit where we left off, Dr. Albright, modeling 
simulation, computing capabilities, supercomputers especially 
within our National Laboratories, can you just speak 
specifically to how valuable those are as we move forward with 
talking about how this can be incorporated into looking at 
deploying these technologies and creating a safer flying 
environment for passengers?
    Dr. Albright. Sure. Let me focus on one specific example. 
One basic concern you have when you are thinking about 
deploying a next generation of any kind of system, what is the 
minimum amount of explosive you really need to detect, and 
clearly we are not very much interested in, you know, very, 
very small amounts. So the question is, what do these systems 
really have to be able to do? And the only way to really know 
that is to ask yourself, what is the vulnerability of the 
aircraft to various explosive formulations placed at various 
parts on the aircraft? There are sort of two ways you can do 
this. One way is you could go out and buy a whole bunch of air 
frames and just start blowing them up, and we actually do a 
little bit of that. But that is obviously not a very efficient 
or cost-effective approach. The other approach is to use some 
of the exquisite modeling and supercomputing capability that 
exists at places like Los Alamos and Livermore and Sandia and 
to do structural modeling of the air frames and then ask 
questions, like, if I put, you know, so much explosive at this 
point in the passenger compartment, you know, am I going to get 
a rupture, a whole rupture, and what would the consequences of 
that for an airplane under flight conditions.
    That is actually pretty hard to do, and it does require 
validation through some subscale experiments which again, all 
the laboratories have the ability to do and do in support of 
this program, and yes, it does every once in a while, if for no 
other reason than to make people confident that we actually 
know what we are doing, we actually occasionally go out and 
blow up an airplane and show that we got the right answer. But 
nevertheless, that is a fairly broad campaign. Every air frame 
is different. There are differences between even different 
embodiments of the--you know, you have 757 stretches, you have 
757s. They all have different structural responses, and so you 
have to have an understanding of that so that you can 
ultimately set requirements for what that explosive detector 
has to be able to find when you get to the passenger 
checkpoint.
    Mr. Lujan. Thank you, Dr. Albright. Mr. Chairman, I think 
we have seen the importance of making sure that we are looking 
at simulation, modeling, supercomputing capabilities to assist 
us moving in that endeavor as we identify the molecular 
footprint of some of these chemicals, these very destructive 
weapons-based materials to do harm. And I also appreciate, Mr. 
Buswell, that the Department of Homeland Security has moved 
forward to engage in a more senior level working relationship 
with our NNSA laboratories. I think it is important that we 
identify that technologies like MagVis are an important step in 
identifying where we were weak during this December 25 
incident, this horrible failed attempt that we saw come 
forward. But as we identify the importance about modeling and 
simulation that we take into consideration the aspects of 
rendering the whole system. And specifically, Mr. Buswell, if 
we can get a commitment from DHS that this is one area that we 
can work with our National Laboratories as well, building into 
this relationship, to truly understand the importance of 
evaluating the whole systems-level approach to identify 
weaknesses so we can have systematic approaches to solve them 
before we identify a weakness that comes forward from a failed 
attempt like this.
    Mr. Buswell. I couldn't have said it better myself. That is 
exactly the focus of the systems analysis portion of that I 
started to describe in your last round. And just so you know, 
Sandia National Lab will be leading that effort. The aircraft 
vulnerability assessment portion of it will be led by Lawrence 
Livermore, and then the third area is this idea of emerging 
technologies. What do we not know is out there? As you said, 
every time I visit a National Lab, I am amazed at the treasure 
chest of technologies and science that is going on there. So 
how do we bring that to bear to this problem and other homeland 
security problems and national security problems? That work 
will be co-led by PNNL, Pacific Northwest National Laboratory 
and Los Alamos. So there is real work to be done there and real 
profit to be made, I think.
    Mr. Lujan. Mr. Chairman, just another example of tech 
transfer and looking to our brightest and best across the 
country, to identify solutions to problems where given the 
ability and the necessary environment to support that R&D can 
solve complex issues when it comes to homeland security, 
energy, even economic equations so we can understand the 
complexity of some of the algorithms that were used by 
financial markets, with the devastation that those have caused 
us as well.
    Again, thank you for bringing this to a hearing, Mr. 
Chairman.
    Chairman Wu. Thank you very much, Mr. Lujan, and thank you 
for your contributions to this Subcommittee. I think Sandia has 
had good fortune in many different respects, and you are one of 
them.
    Mr. Lujan. And Mr. Chairman, we hope Los Alamos will as 
well.
    Chairman Wu. Yes. Mr. Buswell, I have asked you before and 
I have also asked your counterpart at the Domestic Nuclear 
Detection Office about the role of comprehensive risk 
assessment. At one point or another there was some concern that 
technologies were being developed and risks were being 
addressed based on how the Vice President was feeling that day, 
and I think the prior Vice President and the current Vice 
President might assess those things very, very differently. And 
one hopes that in our research endeavor for DHS that we have a 
steady hand and guided by real risk assessments. So I would 
like to ask you to address the role of comprehensive risk 
assessment in creating a multi-tiered detection/prevention 
approach and how this dovetails into using different 
approaches, such as using canines as Mr. Garamendi suggested, 
using personal interviews and behavioral detection as well as 
this technologic approach.
    Mr. Buswell. I would be pleased to. The first assessment 
process--first of all, I think the last time that I was here we 
discussed the importance of an overall risk assessment, and I 
am pleased to see in the Quadrennial Homeland Security Review 
Report that was released earlier this week that the need for a 
national risk assessment framework was identified as one of 
those highly important things that we need to go forward with.
    So I know the Secretary understands that, and she is 
engaged in that broader, you know, national risk assessment 
that we discussed earlier.
    Chairman Wu. Mr. Buswell, can you send back a report to 
this Committee on the progress of implementing the systematic 
risk assessment methods?
    Mr. Buswell. I would be pleased to. The systematic risk 
assessment is led by NPPD [National Protection and Programs 
Directorate], the Office of Risk Management in NPPD. So I will 
be happy to work with them and get you that information.
    Chairman Wu. Thank you.
    Mr. Buswell. When it comes to the aviation security risk 
assessment, TSA has done a lot of work in this regard. You 
know, we are not shooting blind here in the screening 
technologies and the screening approaches that were taken. 
Likewise, I would be pleased to coordinate with TSA to bring to 
the Committee that risk assessment that they do regularly and 
they revisit regularly, based on the threats that are emerging. 
You know, as Dr. Albright said, at one time there were very few 
things that we were worried about, people bringing guns and, 
you know, commercial grade or military grade explosives onto 
airplanes, now that list is quite long, and prioritizing the 
list of things that we have to look for and prioritizing the 
amounts of or establishing the amounts of these various 
substances that we need to look for is high on the list of 
things that we need to do and is fundamental to that risk 
assessment. So I would be pleased to coordinate that engagement 
with the Committee. TSA has done some work in this area that I 
think you would be pleased with.
    Chairman Wu. Thank you very much, Mr. Buswell. I want to 
return to Mr. Garamendi's point because we have a society that 
really focuses on technology, and it has served us well in so 
many different ways. But Dr. Albright mentioned in several 
different ways why detection technology is very challenged by 
the very nature of the current threat. Mr. Garamendi asked 
about dogs, somewhat seriously and somewhat humorously. I 
remember being at an airport in Canada and having this friendly 
little dog come along, and I was kind of disappointed that it 
just went right by me. But I think in retrospect that was a 
good thing. It sat down and looked expectantly at this nice 
young man, and the nice young man was promptly taken away by 
the Mounties, to do what, I don't know. I doubt that it was 
explosives. I suspect that it was something more fragrant and, 
you know, the dog was up to the task. But it is not just, you 
know, our brethren north of the border that do this. Right 
here, if you drive your car over to the Capitol, they will stop 
you. First, they run a mirror to look on the underside of your 
car. And then a dog comes, and my kids and I refer to that as 
getting your car dogged. I don't know how effective that dog 
is. What I do know is that that dog works in day time, night 
time, low temperature, high temperature, when it is dirty, when 
it is snowing, et cetera.
    Now, the puffer machines that were deployed on an 
experimental basis, I believe 100 of them were deployed around 
the country on a trial basis, and the figures that we have say 
that those were $150,000 or more each. And I am told, I mean I 
haven't seen the puffers in a while, but I am told the reason 
why the puffers were pulled is because humidity and dust caused 
puffer breakdown or puffer confusion. I am not sure that a dog 
would have the same problem, and my impression is that $500 
buys you a pretty good dog. Now, granted, you have to feed the 
dog, you have to train the dog, et cetera. But the puffer 
machine was difficult to maintain. Why are we building an 
artificial dog nose when we have pretty good dog noses? Dr. 
Coursey.
    Dr. Coursey. We actually have chemists at NIST working on 
both of those problems closely with the DHS S&T, and 
specifically with dogs the interesting thing I found talking 
with the DHS office of bombing prevention is the range of 
different threats that the dogs are being trained to. It can be 
different in a mass transit environment than it is in the 
aviation. And as you mentioned, some dogs are trained for 
narcotics, others are trained for money and others are trained 
for cadavers. So, there is actually a group called SWGDOG 
[Scientific Working Group on Dog and Orthogonal detection 
Guidelines] that has a series of committees that look at the 
standards for training methods for these dogs. I think there is 
a lot of basic science still to be done here because we don't 
know if a dog is reacting whether he is reacting to the 
particles or to some of the vapors that are associated with 
solvents that were used.
    Chairman Wu. You know, a lot of life is kind of empirical, 
you know? And we need to work out how a dog does this, but I 
think the rubber hits the road in finding whether dogs can 
detect explosives, the kind of explosives that we are concerned 
about on a reliable basis because my arithmetic indicates that 
if you have a $500 puppy, which is a pretty expensive one, you 
get 300 of them for a puffer machine. And the question is 
whether 300 dogs in an airport is more useful than one puffer 
machine. Dr. Albright, you addressed the technical issues a lot 
earlier, and perhaps you could try to address this a little bit 
more.
    Dr. Albright. Sure. Let me just reiterate the fact that 
first we don't really understand very well why the dogs are as 
good as they are.
    Chairman Wu. Yeah, but the question is are they good?
    Dr. Albright. That is a good point, and in fact, it 
sometimes depends a lot on the testing methodology. I won't go 
into it here, but I could regale you off line about my 
experiences when I was at the White House reviewing the 
anthrax-smelling dogs. And it turned out that the test 
procedure was totally biased. I mean, they couldn't do the job.
    Chairman Wu. Well, look, if I were a dog, I wouldn't want 
to be sniffing anthrax, either. Maybe these dogs were just 
brighter than you were giving them credit for.
    Dr. Albright. Well, yeah, yeah. No, it wasn't me. I was 
just the evaluator. I was not the proponent for this. That is a 
whole other story.
    But nevertheless, they do tire very easily. The dog is only 
good for I think about three or four hours before they start 
to----
    Chairman Wu. That is why I said you get 300 dogs for one 
puffer machine.
    Dr. Albright. And it is going to cost you--and the training 
regimen they have to go through----
    Chairman Wu. I realize that.
    Dr. Albright. --is months. And then finally, there is a 
range of explosives that--it is not known how broad a range, 
including these homemade explosives that we are concerned 
about, that they can actually--so you are right. There are some 
science questions that have to be dealt with, but the 
investment that would have to be made in order to really 
populate our explosive detection infrastructure or dogs to the 
numbers that we would need to do it at is----
    Chairman Wu. Well, you know, we haven't done a very good 
job of populating airports with usable detection technologies 
you know, that cost $100,000 or $200,000 each. Now, I realize 
that there are challenges in acquisition and maintenance and 
you know, on and on. But you know, sometimes in our society, 
and you know, I serve on the Science and Technology Committee, 
but we have an absolute love affair with whiz-bang gadgets, and 
sometimes it turns out that something simple and inexpensive 
and deployable is being overlooked because we have made 
assumptions. I mean, it was in this complex of buildings that a 
Nobel physicist dumped an O ring into a glass of cold water and 
said, well, you know, this might be why the Space Shuttle blew 
up.
    So sometimes we need to review our assumptions and our 
inclination toward complexity. So you know if I should be 
worried that the dogs guarding the U.S. Capitol or sniffing 
cars out there, that they are not doing a good job and they are 
not reliable and that they are going to get tired, I mean, you 
ought to tell me that that is the case. But it seems to me that 
those dogs are out there 7/24, and I know that the Capitol is 
not, you know, several thousand airplanes flying around the 
U.S.A., but you are not going to tell me that a country that 
can deploy millions of troops overseas during World War II 
cannot deploy a few hundred dogs in civilian airports in the 
continental United States if this is truly the long twilight 
struggle that some folks would want us to believe that it is.
    Dr. Albright. No, the only point I wanted to make is that I 
think a lot of that systems analysis that you were referring to 
has been done, and it was done in the early days when we were 
concerned about, you know, right after Lockerbie and that era 
were really looking for solutions. I have to confess that I 
haven't looked at it in a while. As to what are the trades 
between the thousands of dogs you would have to deploy in an 
airport environment, and the technologies that we are 
deploying. I would point out, and I think you made the point 
yourself, that the operating environment out here driving into 
the Capitol is a very different environment than one at the 
passenger checkpoint. But nevertheless, the point is a good 
one, and it is probably a good idea to go back and dust off 
some of those system studies and ask the question whether or 
not maybe we are missing something.
    Chairman Wu. Yeah, you know, I think it is really important 
to try to review some of these assumptions and test them again 
and, you know, the operational test is, does it work. And you 
know, it is really nice to understand the how and the why, but 
you know, if you have got to understand the how and the why 
before you deploy something that works, you may not win some 
struggles that you might otherwise be able to win.
    Now, I have never been a conspiracy-type person. I do think 
that as a society we naturally favor technology, and sometimes 
it is more expensive than simpler things. I do want to, on this 
record, make the observation that these technologic means are 
also, well, they keep the National Laboratories occupied, they 
keep the producers of the technology occupied, and you know, 
some of these manufacturers have representatives in Washington, 
D.C., and I don't think the Kennel Club is very well-
represented here. And I don't know if that has anything to do 
with it, but I sure would like to have some of these easy 
assumptions revisited or else I would like to have puffer 
machines at the U.S. Capitol, you know, rather than what they 
are currently doing.
    Let us shift now to one of the challenges here for you all 
is that we fly a lot. You know, congressmen fly a lot, and so 
we think we know everything there is to know about flying and 
being a passenger at least. And we have all had experiences 
where something that is detected at one airport or on one given 
day is not detected on another day. You know, you try to take 
everything out of the bags, but you have a four-ounce bottle of 
fluid and the limit is 3.5, and on some days it is spotted and 
you have to remove it and on other days it is not. I don't 
always travel with a laptop, but sometimes I do. And every once 
in a great while I forget to take it out of the pocket of my 
carry-on bag, and as often as not, I don't know if they just 
wave it through. It seems to me when they catch it, they make 
you pull it out. But sometimes it seems like they don't catch 
it. And if I am in a hurry, I am grateful and it is 
unintentional that that happened but most of the time I also 
feel a little concerned that what they say is important isn't 
caught. Can the panel try to account for this disturbing 
variability in the screening process at our airports?
    Mr. Buswell. I am the science guy, so I don't have the 
operational insight to know, you know, the facts about these 
things. I know anecdotally I have heard the same sorts of 
things, and what I would tell you is that what we are looking 
at from the research and development----
    Chairman Wu. Mr. Buswell, let me jump in right here because 
this is a really important point. You said, I am the science 
guy, and I don't know some of the operational things. That is a 
very important problem that we are trying to address because 
you are not producing stuff into a vacuum. It is not about the 
gizmo, it is about the effective service that that gizmo 
provides. So you really do have to account for all the 
operational factors. I mean, if you produce a great weapon but 
the operators don't know how to operate it, or like the Russian 
tank that is manually loaded but you can only manually load it 
with a short Russian who is left-handed, you know, that causes 
a real problem. So you know, what we are trying to hook up here 
is a technology that is actually implementable in the real 
world.
    Mr. Buswell. Sure, and my point with that was that the 
operational requirements that TSA establishes or what we do our 
research and development to meet, to field technologies and 
other operating procedures to meet, you bet there is a 
variability across a range of things. And one of the things we 
are working with TSA to do as I mentioned is this idea of 
automatic target recognition so you are not relying so heavily 
on the screener who may have been there for some period of time 
and is fatigued and may miss something. So what we are trying 
to do is we are trying to develop these kinds of technologies 
that will help us help the screeners be more effective. We are 
trying to look at from a behavior detection standpoint, can we 
identify people who intend to do harm before they ever get into 
the screening process. We are looking at things like--and you 
make a very good point with the dogs. I mean, TSA is a system 
of systems. There is no silver bullet here, which is why TSA 
employs 700 dog teams. You know, they believe that that 
capability is real, too, and training occurs at both ends of 
the leash. And one of the problems as Dr. Albright cited is 
there is no way to calibrate the device prior to use. So you 
know, if the dog is having a good day or a bad day, you know, 
there are limitations and we have to understand those 
limitations and build them into the system of things that----
    Chairman Wu. You said there is no way to calibrate. Is that 
true? I mean----
    Mr. Buswell. It is absolutely true.
    Chairman Wu. I mean, can't you walk the dog by experiment 
and placebo and----
    Mr. Buswell. Absolutely. Training of the dog is clearly 
important.
    Chairman Wu. No, I am saying like you could calibrate the 
dog on site and determine whether the dog is tired or not and 
ought to be pulled off line.
    Mr. Buswell. If you have a training device on site with 
which to do that. And so one of the things that TSA has asked 
us to do is develop some low-cost training devices that we can 
use in the field where we don't have to take the dogs back to 
the training center so we can more frequently train the dogs to 
do these sorts of things.
    There is research and development going on in all of these 
areas that try to mitigate or try to minimize the probability 
that things will slip through, and this is a system of systems. 
This is a layered approach to security that includes dogs and 
technology and people and all of those things that make it 
maximally effective.
    Chairman Wu. Well, I think the core concern is that based 
on individual experience and then what is reported in the news 
media, the American people have a legitimate concern about 
whether all this inconvenience is producing a result that we 
all want. And you know, that really is the core inquiry.
    Let me go on to one last question. I know that Mr. Smith 
told me long ago that he had to attend to certain things at a 
certain time. The transportation security and passenger 
screening IPTs apparently consider the needs of DHS offices 
such as TSA but I am told not the concerns of other customers 
such as the traveling public, airlines and airports. Is this 
true, and if it is, would considering these other concerns such 
as customers, the traveling public, air carriers, the ports 
that operate airports, would this surface some of the problems 
earlier resulting in different technologies being deployed, 
different research efforts?
    Dr. Hyland. I would like to say yes, I think that taking 
into account the public's perception, but the operators of the 
machine are also involved in the whole aviation security and 
technology. So designing the machine so that they get as Mr. 
Buswell says specific information about what they are looking 
for as opposed to here is a bag, do you see anything different 
in there. That has been driving the TSA activities. It is only 
one part, and the traveling public has come to kind of expect 
that variability, which I think is an unfortunate acceptance of 
non-standard performance.
    Mr. Buswell. I would just further elaborate on the 
Community Acceptance of Technology panels that I mentioned 
earlier. We run these panels based on technologies that will 
have to be accepted by the public. So we have done a series of 
these with some pretty good results, and we intend to do more. 
So let me give you a couple of examples. We held a panel on 
microwave vehicle stopping, in other words, law enforcement or 
others who need to stop vehicles, whether those are cars or 
boats, can you use a microwave device in order to do that and 
what would be the concerns that people would have with that. 
The panels include sociologists, behavior scientists, consumers 
and public interest representatives, civil liberty sorts of 
groups and privacy groups, ethicists, and also for each of 
these technologies, we will include specific subject matter 
experts. For example, on the vehicle stopping technology, we 
had a member of the American Automobile Association as part of 
the panel. And of course, the Coast Guard, CBP [Customs and 
Border Patrol] and others, law enforcement entities that would 
be interested in using the technology. So a series of these, we 
have done several on screening technologies, we have done 
several on the mobile biometrics, and they allow us to 
understand and to modify the technology development in a way 
that makes it more likely that it will be able to be deployed 
by the operators at the end of the development process. So I 
think we have got a real success story there with these public 
acceptance efforts, and this gets to the point that was in the 
National Academies, engage early in assessing the public 
acceptance of technology.
    Chairman Wu. Well, Mr. Buswell, I hope that you are able to 
come back in a month or two and first of all tell us that you 
have the data in hand about what problems actually do exist and 
what people will accept and what they view as overly intrusive. 
You know, to the extent that you actually involve passengers in 
your groups, that is commendable. To the extent that you are 
counting on the opinions of folks who are opining about people, 
you know, that is a risky thing to do, and apparently there are 
at least two surveys here where they actually asked people and 
got answers. And I don't have the granularity in this data to 
unpack the significance of these preliminary results about the 
traveling public and the really frequent flyers versus the 
never flyers versus the sometime flyers, and there really is no 
substitute for asking. There is no substitute for accurate 
data, and I think that is true in a whole bunch of fields in 
science and it is true in your field and it is true of mine 
also.
    I really want to express my deep appreciation to each and 
every one of the witnesses here today. We are engaged in a 
very, very important collective endeavor. It is about 
convenience and public acceptance and economics for airlines 
that if you sum up all their financial activity over the 
history of airlines, it is not clear that there is one dollar 
of profit in there. So you know, they are living on the edge, 
and if we want to have a privately owned air transit system, 
then we ought to help them do their job rather than put 
unreasonable constraints in their way. But the endeavor that we 
are engaged in is even more important because it is about 
public safety, and we face all sorts of different risks. But 
currently, you know, folks are very much focused, and 
appropriately so, on this terrorism threat and the threat of 
human-made incidents on airplanes, and we need to address that 
as aggressively as the American people want us to. But I think 
most fundamentally, this is about whether this government can 
do a job, can do any job, can do a job well because what is 
most corrosive is that experience at the airport that there is 
incredible variation in the service at that security 
checkpoint. If any other business entity had that much 
variability, I mean, you know, McDonald's has a hamburger you 
so that you don't get a different burger at every McDonald's 
that you go to and that you don't get a different burger, 
depending on whether you went in the morning or the afternoon.
    We need to, at a more elevated level of conversation, we 
need to do this task well because it is important for its own 
sake, but ultimately we need to do it well because it is the 
only reason ultimately why there is a bond between ourselves 
and the government. Some believe that it does well. I think 
John Kennedy said if I wanted to make a difference in the way 
people perceive the Federal government, I would start by 
changing the Postal Service, and that is with all respect to my 
friends in the Postal Service. And I have a riff on that which 
is, if I were governor of Oregon, the first thing that I would 
do to change the public perception is work with DMV to brighten 
up the service there. The American people come into contact 
with the federal government as much through the TSA and at 
airports as any other place. Let us do our best to get it 
right.
    Thank you very much, and written questions will be 
submitted by the staff and by Members. Again, thank you for 
being here, and we really want to work with you to make sure 
that you have the legislative support and the fiscal support to 
get these very, very important tasks right, so we will come 
back to this in due course. Thank you all very much. This 
hearing is adjourned.
    [Whereupon, at 3:58 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions

Responses by Bradley I. Buswell, Deputy Under Secretary, Science and 
        Technology Directorate, Department of Homeland Security

Questions submitted by Chairman David Wu

Q1.  DHS S&T uses the Capstone IPT process to set the priorities for 
short and midterm research programs, but how are priorities set for 
long-term basic research and research programs at University Centers of 
Excellence, DOE National Labs, and NIST? How are these priorities 
coordinated?

A1. The Science and Technology (S&T) Directorate defines research in 
the context of its portfolios: ``Product Transition,'' ``Innovative 
Capabilities,'' and ``Basic Research.'' The efforts within the Basic 
Research portfolio enable future paradigm changes. These efforts 
emphasize (but are not limited to) university research and governmental 
lab discovery and invention.
    The S&T established Basic Research Focus Areas, generated by the 
Research Leads in the Directorate's six divisions with input from the 
research community and vetted through S&T's Research Council. These 
focus areas represent the technological areas in which S&T seeks to 
create and/or exploit new scientific breakthroughs and help guide the 
direction of its Basic Research portfolio, within resource constraints, 
to provide long-term science and technology advances for the benefit of 
homeland security.
    Each of S&T's divisions sponsors basic research in those areas and 
coordinates closely with our Office of University Programs (OUP), 
Office of National Labs (ONL), and International Cooperative Programs 
Office (ICPO) to ensure effective collaboration of the research 
efforts.
    OUP is responsible for establishing and managing S&T's university 
research and education efforts. OUP has facilitated the establishment 
of a network of multidisciplinary universities that support the 
Department and other members of the homeland security enterprise. OUP 
develops and manages grants and cooperative agreements, to support 
targeted research and education projects with the COE lead universities 
and their partners.
    ONL enhances the interaction and coordination between the various 
S&T research divisions and the DOE National labs, primarily through 
establishing a research community for homeland security and maximizing 
opportunities for all DOE assets and capabilities involved in the 
homeland security mission, including conducting crosscutting workshops 
that allow the S&T research divisions and the National Labs to present, 
exchange, and establish research priorities. Additionally, by serving 
as the primary point of contact on the utilization of National 
Laboratories, ONL is able to develop, sustain, and expand a coordinated 
network of DHS and DOE National Laboratories and other Federal labs and 
centers.
    The S&T's Office of Standards funds and coordinates standards 
development for equipment used and purchased by DHS. Working with 
scientists, the Standards Thrust Area identifies standards needs and 
funds initial standards development through a variety of performers_
most notably research scientists at the Nation's measurement lab, the 
National Institute of Standards and Technology (NIST). Once the 
measurement science is solid, the office works with numerous standards 
development organizations to finalize homeland security standards in a 
consensus environment_a forum which includes users, manufacturers and 
the government.

Q2.  At the hearing, the Subcommittee called for DHS S&T to study the 
issue of public acceptance of full body imagers and to provide data on 
the public response to these machines. What is the status of this 
study?

A2. The Science and Technology (S&T) Directorate and the Transportation 
Security Administration (TSA) have taken into consideration the results 
of a Gallup poll on full body scanning of passengers, reported by 
Gallup.com on January 11, 2010 in the article ``In U.S., Air Travelers 
Take Body Scans in Stride.'' According to the Gallup poll, 78 percent 
of respondents said they approve of the use of full body scanning 
machines at airports and 84 percent said full body scanning machines 
would help stop terrorists from carrying explosives onto planes.
    Also, in March 2009, TSA conducted passenger acceptance of advanced 
imaging technology (AIT) testing at six airports. The testing captured 
statistics on passenger acceptance of AIT during the course of testing 
millimeter wave AIT in the primary position. During this testing, over 
98 percent of passengers chose AIT over other screening options in the 
primary position, such as a physical pat down.

Q3.  Why do the Transportation Security and Passenger Screening IPTs 
only consider the needs of DHS offices, such as TSA, and not the 
concerns of other customers such as passengers, airlines, and airports? 
If DHS had considered these customers' concerns, would development 
priorities have addressed key privacy concerns earlier in the process?

A3. The Science and Technology (S&T) Directorate's Transportation 
Security Capstone Integrated Product Team (IPT), other Capstone IPTs, 
and supporting project level IPTs do consider the concerns of the 
traveling public, airlines, and airports when prioritizing and 
developing technology. As an example, inputs from the surface 
transportation industry, intermodal venues, and trade associations are 
provided through several means to Transportation Security 
Administration (TSA) general managers for each of the venues (such as 
mass transit, freight rail, highway/motor carrier)_including the 
Government Coordinating Councils and Sector Coordinating Councils. 
Those inputs are included in the TSA capability gaps submissions 
provided through the IPT process each year.
    If there are privacy issues relative to a new technology, TSA and 
S&T coordinate with the Department of Homeland Security (DHS) Privacy 
Office to ensure privacy requirements are met and the technology is 
properly evaluated for its impact on the privacy of the traveling 
public. As an operating component, TSA understands the need to balance 
security and the introduction of new technologies with the need for 
movement of commerce and the efficient flow of the traveling public.
    Many of the priorities set by the Capstone IPT are for screening 
technology that improves flow and efficiency while maintaining or 
improving security. Once the Capstone IPT prioritizes a technology 
development, TSA and S&T work at the project level to ensure the 
technology and supporting concept of operations take into consideration 
the traveling public, airlines and airports. This is done through a 
variety of means, focus groups on the technology, demonstrations and 
experimentations at airports, and working with the airlines and 
airports on the more detailed requirements. The considerations and 
concerns of the traveling public, airlines, and airports are considered 
from day one within the process.

Q4.  In your testimony, you mention the Technology Acceptance and 
Integration Program and Privacy Impact Assessments. Please describe 
these programs and provide examples of their input into all stages of 
the research, development, and deployment of passenger screening 
technologies, including full body imagers.

A4. The Technology Acceptance and Integration Program researches public 
perceptions of new technologies and processes to: 1) identify factors 
that can advance or impede technology deployment and 2) to identify 
adjustments to technologies and processes that make them more effective 
in achieving their intended purposes. This research generates knowledge 
that drives process improvement and guides the development and 
deployment of technologies to optimize public acceptance.
    In particular, the Technology Acceptance and Integration Program 
sponsors the Community Perceptions of Technology (CPT) Panel Project, 
which brings together representatives of industry, public interest 
groups, community organizations, and citizens with subject-matter 
experts to understand and integrate community perspectives and concerns 
in the development, deployment, and public acceptance of technology. In 
FY 2009, the project coordinated three panels. One panel focused on 
Acoustic Non-Linear Standoff Threat Detection; the second, in 
conjunction with the Canadian government, examined Radio Frequency 
Identification (RFID) vehicle registration and LowResolution Imaging 
for improved Northern Border Security; and the third panel focused on 
Standoff Imaging technologies. Panel responses work to ensure 
acceptance of the technologies within affected communities and aid 
program managers in technical design for deployment to an operational 
environment. In FY 2010, the program will coordinate two to four 
panels. In FY 2011, the project plans to conduct another two to four 
panels, and deliver expert assessments of public perceptions of 
national security measures in relation to factors such as civil rights 
and civil liberties, health and safety, convenience, property damage, 
and privacy issues.
    Pursuant to Section 208 of the E-Government Act of 2002 and Section 
222 of the Homeland Security Act of 2002, a Privacy Impact Assessment 
(PIA) is required when: (1) developing or procuring any new 
technologies or systems that handle or collect personally identifiable 
information (PII); (2) revising or altering such a technology or system 
to impact PIT; and (3) issuing a new or updated rulemaking that entails 
the collection of PIT. S&T conducts PIAs when it funds or conducts 
research, development, testing, and evaluation activities that collects 
or impacts PII. Examples of PII include individual names, contact 
information, biometric information, and images. S&T has conducted PIAs 
for research projects involving screening technology, such as the 
Future Attributes Screening Technology Project and the Standoff 
Technology Integration and Demonstration Program (formerly the Standoff 
Explosives Detection Technology Demonstration Program).
    The PIA demonstrates to the public and stakeholders that program 
managers and system owners have consciously incorporated privacy 
protections throughout the research and development life cycle of a 
system or project. The PIA addresses a wide range of privacy issues, 
including what information is collected, why the information is 
collected, how information is going to be used and shared, how 
information is properly secured and protected, whether individuals are 
provided with sufficient notice prior to data collection, and how 
individuals can access or correct their information. The PIA also 
considers privacy risks associated with the research and data 
collection, and how program managers propose to mitigate such risks. An 
example of a privacy risk associated with the collection of individual 
images during the testing of screening technologies is that individuals 
are not aware that their images are being captured. To mitigate such 
privacy risks, program managers ensure that proper notice is provided 
either by posting signs or getting informed consent from individuals. 
Individuals may also be given the opportunity to ``opt out'' of having 
their images collected. Such analyses are documented in the PIA.

Q5.  In your testimony you mentioned the new DHS and DOE Aviation 
Security Enhancement Partnership. What impediments is this partnership 
supposed to remove and how will our traveling constituents benefit from 
this agreement?

A5. The Aviation Security Enhancement Partnership is a senior executive 
level effort to solve the most immediate aviation security issues by 
leveraging the power of the national laboratories. The Partnership 
provides a road map for the national laboratories to use while pursuing 
solutions to aviation security gaps. This guidance clarifies, 
coordinates, eliminates duplication, avoids stovepipes and directs work 
across the national laboratories. Travel sector stakeholders benefit 
from advanced screening technologies that increase security while 
improving the effectiveness and efficiency of screening processes.

Q6.  President Obama directed DHS and the National Labs to develop and 
deploy the next generation of passenger screening technologies. How do 
you plan to coordinate this effort with NIST given their expertise in 
sensors, biometrics, and technical standards?

A6. The Science and Technology (S&T) Directorate is coordinating 
directly with the National Institute of Standards and Technology (NIST) 
in multiple technical areas related to passenger screening. 
Interactions include close cooperation at the program manager level and 
several Interagency Agreements (IAAs) in technical areas that include 
development of standards and measurement methods for biometrics and 
usability, trace explosives sensors, canine olfactory detectors and 
advanced imaging technologies. NIST and Department of Energy (DOE) 
laboratories are partners in the DHS Explosive Standards Working Group.
    The S&T's primary contact with NIST is via our Office of Standards 
in the Test, Evaluation & Standards Division (TSD). We have long-
standing programs in explosives detection standards and are 
capitalizing on those as well as strong relationships with the 
Transportation Security Administration (TSA) and the Transportation 
Security Laboratory. Our joint DHS/NIST standards programs in bulk and 
trace explosives detection have produced documentary standards, 
standards reference materials, test objects and best practices. Our 
biometrics standards programs, in partnership with S&T's Human Factors 
Division, are closely linked with NIST and US VISIT_we have funded 
standards in face, fingerprint and iris identification, standards for 
exchange of biometric data, as well as human factors standards to 
increase passenger throughput with the best possible data collection.

Questions submitted by Representative Ben R. Lujan

Q1.  Dr. Albright from Lawrence Livermore has done a nice job in his 
submitted testimony of walking through the broad capabilities of the 
national labs in the area of passenger screening. Can you describe for 
us, Mr. Buswell, what DHS's plans are for further applying the national 
labs to this challenge?

A1. The Science and Technology (S&T) Directorate maintains an 
established and extensive partnership with the National Laboratories. 
The S&T's Explosives Division has involved the labs in every aspect of 
its aviation security technology programs. Examples of established 
research with Sandia, Los Alamos, and Lawrence Livermore National 
Laboratories (LLNL) include characterization of homemade explosives and 
the Manhattan II program. Sandia, Los Alamos and LLNL, as part of the 
National Explosives Engineering Sciences and Security Center (NEXESS) 
effort, are working to characterize homemade explosive (HME) threats 
and determine explosive effects on aircraft structures. Sandia National 
Laboratory (SNL) has been working on the Manhattan II Program, 
examining next generation carry-on baggage technologies. Over several 
years, SNL has been evaluating commercial advanced imaging technology 
systems to acquire data with which to accomplish automatic target 
recognition.
    As an on-going practice, the National Laboratories share the data 
accumulated among the national laboratory network and universities 
through such institutions as the S&T Directorate's Explosives Center of 
Excellence, co-chaired by the University of Rhode Island and 
Northeastern University. This has been ongoing in the area of algorithm 
development where the work requires knowledge of how well current 
systems can differentiate threats from non-threats and their realistic 
promise in maturing into true. threat detection capability (as 
contrasted with anomaly detection).
    The S&T has identified prospective research and development with 
the National Laboratories. For example, how to optimally fuse 
technologies for passenger screening to obtain the best performance, 
measured by probability of detection of an ever increasing list of 
plausible threats and lower false alarm rates.
    An additional critically important effort in which the National 
Laboratories, especially LLNL, have been involved is the industry 
process to derive a consensus interface standard, DICOS, based upon the 
medical interface standard, DICOM. This interface standard will permit 
hardware and software development activities to be independently 
pursued and then drawn together in a combination of best hardware and 
best software for the superior performance required in all security 
applications including passenger screening. While emphasis has been 
upon application of DICOS to explosives detection systems checked 
baggage applications, the effort will be extended to passenger 
screening technologies in the future.

* DICOS: Digital Imaging and Communications for Security
* DICOM: Digital Imaging and Communications in Medicine

Q2.  Mr. Buswell, although we are most focused today on passenger 
screening, I have been particularly impressed with the briefings and 
demonstration of Los Alamos National Laboratory's MagViz technology, 
which uses ultra low-field magnetic resonance imaging to identify 
liquids in carry-on bags. This is a proven technology that has already 
been demonstrated in a pilot. Your predecessor Under Secretary Cohen 
saw the pilot demo at Albuquerque's airport. Can you describe what 
DHS's plans are for the rapid implementation of this proven technology? 
I ask this in particular in the context of your recent budget 
submission that called for more than $700M to be spent on new types of 
metal detectors. It seems to me this is reactive, old thinking. The new 
challenge today is not metal--it's liquids and other materials that we 
currently have a hard time detecting.

A2. While the Transportation Security Administration (TSA) is 
responsible for decisions related to the fielding of technologies in 
the operational environment, the Science and Technology (S&T) 
Directorate recognizes the need for new technologies to address 
emerging challenges. Since 2006, TSA procedures have required 
passengers to put liquids or gels (e.g., certain toiletries and 
medicines) in containers that are 3.4 ounces or smaller, and pack the 
containers into one quart-sized, clear plastic, zip-top bag (3-1-1 
rule). The December 2008 demonstration of a prototype at the 
Albuquerque Sunport Airport showed that MagViz could successfully 
distinguish between safe and hazardous materials, overcoming challenges 
that could affect its sensitivity.
    MagViz is still a research and development effort. Various 
technological hurdles need to be overcome before MagViz can be fielded. 
These hurdles include reducing the footprint, eliminating the use of 
liquid helium, and improving the scanning speed. Recognizing the 
potential value of MagViz, and the demanding technical challenges that 
remain, the Homeland Security Advanced Research Projects Agency 
(HSARPA) added additional funding to the project in fiscal year 2010. 
We accelerated our plan to demonstrate the capabilities of a new 
research prototype to handle a larger TSA tub and a broader array of 
both non-hazardous and dangerous liquids in July 2010. Responding to a 
formal requirement by TSA for bottled liquid scanner (BLS) systems to 
screen 3-1-1 rule exemptions, S&T is also spinning-off MagViz 
technology to develop a BLS prototype and expect to demonstrate it at 
Albuquerque Sunport Airport in the fall of 2010. To facilitate the 
transition of this technology to industry_which must qualify their 
screening systems through the Transportation Security Laboratory_we are 
supporting a MagViz Commercialization Workshop being hosted by Los 
Alamos National Laboratory in March 2010.

Q3.  Further, Mr. Buswell, on the point of detectors, all of the 
briefings I have had from the scientists at Los Alamos indicate that 
what we need to be focused on is the whole system. We need a systems-
level approach to working this threat. I think MagViz is part of that 
system because we all know that the traveling public would like to go 
back to taking their bottled water and other liquids onto a plane. So, 
MagViz is a good start. However, I think DHS and TSA need to go further 
to really apply the labs to study the whole system of protecting the 
traveling public. Let's tap into their expertise, their supercomputing 
capabilities. Can you walk me through what DHS's plans are in this area 
to pursue with the NNSA labs a systems-level approach?

A3. The Science and Technology (S&T) Directorate is performing systems 
analysis in conjunction with the Transportation Security Administration 
(TSA) and Sandia, Los Alamos, Lawrence Livermore, Oak Ridge, Idaho, 
Argonne, Pacific Northwest, and Lawrence Berkeley National Laboratories 
in the Aviation Security Enhancement Partnership. While supercomputing 
capabilities are well suited to modeling complex nuclear physics 
problems, computational requirements for systems analysis are modest. A 
systems perspective requires the fusion of complementary technologies 
that cover the limitations of any single technology and are practical 
in the real operating circumstances presented where passenger screening 
occurs. We are determining the optimal combination of technologies to 
accomplish these ends. The National Laboratories are key partners in 
this work because they bring both knowledge of the threats, 
particularly homemade explosive threats through their characterization 
activities, and detailed knowledge of x-ray, millimeter wave, radar- 
and terahertz technologies, which are candidates for sensor fusion. The 
S&T will continue to analyze the aviation checkpoint system in 
partnership with the National Laboratories and others in order to best 
apply the capabilities of each.
                   Answers to Post-Hearing Questions
Responses by Dr. Penrose C. Albright, Principal Associate Director for 
        Global Security, Lawrence Livermore National Laboratory

Questions submitted by Chairman David Wu

Q1.  DHS S&T uses the Capstone 1PT process to set the priorities for 
short and midterm research programs, but how are priorities set for 
long-term basic research and research programs at University Centers of 
Excellence, DOE National Labs, and NIST? How are these priorities 
coordinated?

A1. The thrust of this question, as I understand it, is to understand 
how does the Department of Homeland Security Science & Technology 
Directorate (DHS/S&T) develop priorities for long term R&D, and the 
creation of revolutionary new capabilities. As implied by the question, 
the S&T Capstone IPT process is not well suited for that purpose. IPTs 
are commonly used for executing projects, such as acquisition programs 
(e.g., satellites, ships), where it is critical that the various 
organizations responsible for part of the project's execution (e.g., 
major subsystems, test & evaluation, requirements, system trades) are 
working closely together, and where it is critical that a forum exist 
to allow disciplined vetting of major decisions. The aim of such a 
traditional IPT approach is to deliver, in a cost effective manner as 
possible, a defined capability. The needed capability is usually 
determined through a separate process where either:

        <bullet>  A need articulated by an operational entity is turned 
        over to the technical community for solution, or

        <bullet>  (Importantly) the technical community's vision for 
        the ``art of the possible'' creates new opportunities for the 
        operators.

    The former typically leads to evolutionary R&D and the latter to 
revolutionary capabilities. IPTs, again, are not generally useful for 
defining a project, but rather for assisting in its execution.
    The DHS/S&T Capstone IPT process is used entirely as a means for 
defining the content of various portfolios of activity. A particular 
concern is the IPT process is driven by requirements pull from the 
operators, rather than technology push informed by the state of the 
art. This is a noteworthy concern given the general lack of history 
(and culture) within the DHS operational components for technical 
innovation. An additional issue is that members of the Capstone IPTs 
are usually senior leaders within the operational agencies, not 
obviously attuned to the actual problems as seen in the field, and 
bound by prior decisions, and ways of doing business. Finally, a 
portfolio of activities driven by the operational requirements 
articulated by senior operational managers is almost certainly going to 
be evolutionary in nature, less reliant on technical innovation, and 
short term in its deliverables. All of this is exacerbated by DHS/S&T 
policy (at least as promulgated by the prior leadership) for only 
funding those efforts that originate from the IPT process. Hence, 
although the DHS/S&T IPT construct can in fact be useful for defining 
projects addressing clear gaps in capability generally with short term 
projects, it is hard to see how, in a consistent manner, revolutionary 
new ideas, requiring greater innovation and longer duration, can be 
systematically brought to bear in defense of the public. It is worth 
noting that ``operator pull'' R&D has been the model used by the 
Military Services with their laboratories for many years now, with 
consequent degradation of that infrastructure; the consequent lack of 
sustained, high quality technical focus on hard problems; and a heavy 
reliance on ad hoc private sector initiatives.
    An alternative concept, successfully exercised in the early days of 
DHS/S&T, is to deploy technical staff to the field, working with and 
observing the operators in their daily missions, and seeing where 
technology can be deployed in an environment where real operational 
constraints are taken into account, as opposed to artificial 
constraints (e.g., ``the way we have always done it''). Exposing in a 
sustained manner technical staff to operations, and to homeland 
security as a discipline, is far more likely to lead to innovative, 
game-changing projects than is attempting to educate senior operations 
managers on science and technology. That sustained focus on issues by 
technically trained people is a hallmark of the FFRDC concept, and of 
the DOE National Labs, in particular, Of course, once a portfolio of 
such projects has been assembled, the senior leadership of the 
operational agencies would convene with their counterparts in DHS/S&T 
to adjust and approve the overall effort.
    Aside from issues surrounding the suitability of the IPT process 
for generating innovative projects, analysis and prioritization of the 
generated needs within the budgetary constraints of the Directorate has 
been in the past few years lacking. There is a natural desire to 
address all needs generated by the users, but there are far more needs 
than the S&T annual budgets can support and the previous S&T leadership 
did not provide adequate multi-year strategic planning to prioritize 
R&D investments. There is no evidence that technology road mapping has 
been performed to ensure appropriate time and resources are allocated 
to projects, driven by risk and complexity as opposed to often ill-
informed operator desires (regarding, e.g., schedule) expressed within 
the IPTs. The DOE National Labs have urged the use of technical experts 
to help with prioritization and road mapping of solutions, and that 
these roadmaps be used by Congress and the operating units to measure 
the success and commitment of S&T to the IPT-generated needs.
    Finally, there needs to be continued attention given to technology 
transition from S&T to operational components--even though the IPT 
construct is dominated by operator ``pull'', that is no guarantee of an 
operator-funded procurement. Product maturation mechanisms should be 
strengthened and concepts akin to advanced technology demonstrations 
programs used in the DOD might be considered for this purpose.
    The new DHS/S&T Undersecretary brings to the table a strong 
scientific background and an understanding of how science, technology, 
and engineering can be developed and deployed to address mission 
issues. Her approach to the President's aviation security directive 
indicates a thoughtful recognition of the need to address long term 
foundational issues, the need to deploy the DOE National Labs in a 
manner that will provide the sustained attention the problem demands, 
while also addressing near term urgent needs. I look forward very much 
to working with her to address the Nation's security problems.

Balancing Near-Term and Long-Term S&T

    The need for substantial near term, evolutionary research and 
development applied to the DHS mission is substantial; however the DOE 
National Labs have become increasingly concerned that DHS has not given 
adequate attention to long term research. Truly hard problems are not 
being attacked with sustained focus by the best minds in the Nation. 
Instead, well-defined, short-term, low-risk projects are being funded-
as noted above, that is a natural consequence of the extant IPT 
process. In this environment, creative breakthroughs will not be 
realized and hard problems are not likely to get addressed. Examples of 
the types of challenges that require sustained, high quality focus are 
real-time detection and assessment of extant, advanced, and emerging 
biological threats; ability to non-intrusively detect nefarious intent 
of people; real-time consequence analysis of large-scale natural 
disasters; and the ability to detect and protect cyber networks at the 
National scale from attacks.
    Even in those areas where the needs are clearly understood by the 
operators, the balance between near term issues and longer term 
foundational needs is problematic. For example, in aviation security, 
the analysis of emerging threats, vulnerability of air frames, and 
development of improved technical capabilities, while part of the 
overall program, has been underfunded at the expense of supporting near 
term operator needs (in this case, an imminent TSA acquisition); while 
the near term issue is critical, the lack of funding for the 
foundational science reflects at least a potential concern regarding 
the relative prioritization of short and long term research. We 
strongly urge the establishment of a formal process aimed at the 
development of long term research priorities and roadrnaps, informed by 
the expertise resident in the relevant research communities, that drive 
the creation of programs that are of the proper size and length to 
address long term issues, and to create a foundational base for the 
homeland security mission.
    The Centers of Excellence have historically set their priorities in 
the context of the research interests of the members, and to a large 
degree by the priorities expressed in their original proposals. 
Clearly, a process aimed at the development of long-term research 
priorities and roadmaps would, as a consequence, allow for the 
allocation of research to the academic communities, as well as to other 
government agencies and laboratories, as appropriate. Such a process 
does not exist to date.

Q2.  In your testimony you mentioned the new DHS and DOE Aviation 
Security Enhancement Partnership--What impediments is this partnership 
supposed to remove and how will our traveling constituents benefit from 
this agreement?

A2. The U.S. Government needs an enduring research and development 
program that systematically addresses current and future threats to the 
aviation transportation system. DHS/S&T has been working in close 
collaboration with the TSA and three of the DOE NNSA National 
Laboratories (Lawrence Livermore (LLNL), Los Alamos (LANL), Sandia 
(SNL)) in an attempt to render a comprehensive understanding of the 
range of explosive threats that could be used to compromise an 
aircraft. The Aviation Security Enhancement Partnership (ASEP) has put 
in place a governance structure to further enhance the DHS and DOE 
ability to advance technical solutions to key aviation security 
problems. Three working groups, co-chaired by DHS and DOE National 
Laboratory personnel are tasked to recommend a strategy and work plan 
to:

        <bullet>  Deliver key advanced aviation security technologies 
        and knowledge.

        <bullet>  Conduct analyses to asses possible vulnerabilities 
        and threats and support/inform technology requirements, policy, 
        planning, decision-making activities.

        <bullet>  Review use of existing aviation security technologies 
        and screening procedures and the impact of new or improved 
        technologies using a system analysis approach to illuminate 
        gaps, opportunities, and cost effective investments.

    This governance model is intended to be fully consistent and 
congruent with a broader interagency national security science, 
technology and engineering strategic governance model.

Q3.  President Obama directed DHS and the National Labs to develop and 
deploy the next generation of passenger screening technologies. How do 
you plan to coordinate this effort with NIST given their expertise in 
sensors, biometrics, and technical standards?

A3. As stated in my written testimony, the primary source of funding 
for Aviation Security Programs at the DOE National Laboratories is DHS/
S&T and TSA. In addition to our regular interactions with the DHS and 
TSA program managers and routine peer reviews conducted at the DOE 
National Laboratories (by academic and industry experts), the NEXESS 
program has also established a Blue Ribbon Panel, chaired by TSA that 
includes members from DHS S&T, TSL, the private sector, and academia. 
This panel provides assistance in evaluating and redefining the 
explosives detection and certification standards for a range of 
automated screening systems.
    The DOE National Laboratories support the DHS Explosive Standards 
Working Group (ESWG), which is chaired by DHS/S&T, and includes broad 
membership across the DHS Components, the NIST and other Federal 
agencies. LLNL and other DOE National Laboratories are members of the 
National Electrical Manufacturers Association (NEMA) team, which has 
been chartered by DHS to write a new standard for airport security 
called Digital Communication in Security (DICOS). The standard will 
enable prevention, detection, and response to explosive attacks by 
standardizing the screening of checked bags as well as other threat 
risk detection attributes at airports and other security areas. While, 
the current focus is on x-ray equipment, there are plans for future 
work in whole body imaging technologies.
    Over the last 10 years, the DOE National Laboratories have broadly 
engaged the scientific community in aviation security-including NIST. 
Scientists at LLNL, LANL, and SNL have participated in numerous 
National Academy studies and co-authored several reports, including a 
report entitled, ``Airline Passenger Screening, New Technologies and 
Implementation Issues''.

Questions submitted by Representative Ben R. Lujan

Q1.  Dr. Albright, can you describe for the Committee what NEXESS is 
and what role each of the labs play? I want to be clear for the 
committee that this exciting initiative, which has been underfunded in 
the past, provides an already existing framework and strong expertise 
to address this problem of securing the flying public. And, this is an 
initiative that involves the close collaboration of all three NNSA 
labs--Los Alamos, Livermore and Sandia.

A1. The NEXESS Center was established by DHS Science & Technology in 
2006 to build new and to support existing engineering and science-based 
methods for explosives countermeasures. The NEXESS Center is a 
cooperative tri-lab program, leveraging the explosives, systems 
analysis, and structural modeling expertise at LLNL, LANL, and Sandia. 
The NEXESS Center includes 4 elements: Intelligence Assessments, 
Explosive Engineering Science & Technology, Explosive Detection Science 
& Technology, and Advanced Concepts.
    The goal of NEXESS is to improve our nation's ability to 
anticipate, and deter/defeat threats from energetic materials. To date, 
emphasis has been on performance characterization of homemade 
explosives [HME] and understanding vulnerability of aircraft to HME 
threats through the application of NNSA structural and blast models. 
The studies and information produced by the NEXESS Center informs DHS 
aviation security decisions. NEXESS is currently funded at 
approximately $10M/year. As you note in your question, up to this point 
the analysis of emerging threats, vulnerability of air frames, and 
development of improved technical capabilities, while part of the 
overall program, has been underfunded at the expense of supporting near 
term operator needs (most recently, an imminent TSA acquisition of new 
checked baggage systems); while the near term issue is critical, the 
lack of funding for the foundational science reflects at least a 
potential issue regarding the relative prioritization of short and long 
term research. It is hoped that the recent emphasis placed on aviation 
security by the President and the senior leadership of DHS and DOE will 
address the funding issue, and allow the needed foundational research 
to occur while also accommodating the near term priorities.
    The Aviation Security Enhancement Partnership recognizes the 
contributions of the NNSA Labs. Each of the three working groups are 
co-chaired by an NNSA Laboratory:

        <bullet>  Systems Analysis--Sandia National Laboratory

        <bullet>  Aircraft Vulnerability Assessment--Lawrence Livermore 
        National Laboratory

        <bullet>  Emerging Technologies--Los Alamos National Laboratory 
        & Pacific Northwest National Laboratory

Q2.  Dr. Albright, I have seen the modeling and simulation capabilities 
at Los Alamos and I was wondering, with the three NNSA Labs being world 
leaders in supercomputers and visualization how do you see those 
capabilities applied to aviation security?
A2. The National Explosives Engineering Sciences Security (NEXESS) 
Center, has capitalized on the FFRDC model, utilizing the expertise of 
the DOE National Laboratories to develop and implement cutting-edge 
engineering and science-based methods aimed at reducing the risks to 
aviation. The NEXESS Center has provided an important science base for 
aviation security, including:

        <bullet>  Evaluation and characterization of explosive 
        formulations including, emerging (e.g. homemade) explosive 
        threats, the determination of detonability, methods of 
        initiation, detonation velocity, and impulse energy;

        <bullet>  Assessment of the catastrophic damage threshold for 
        aircraft as a function of explosive amount, location, and 
        flight conditions (initial work has been focused on a specific 
        narrow body airframe) using a combination of highly 
        sophisticated computer modeling in concert with small and large 
        scale experiments;

        <bullet>  Rapid assessment of the technical performance of 
        emerging detection systems and their application to aviation 
        checkpoint security; including one particular example that 
        involved working with L3 to determine the utility of active 
        millimeter wave technology for the detection of concealed 
        liquid explosives on a person.

    Reducing aircraft vulnerability to explosives will require using 
the best available advanced computer simulations to model the damage 
caused to an aircraft by an on-board explosion from a wide range of 
conventional and homemade explosives. The goal is to provide as 
parsimonious a set of models as is possible to meet the government's 
needs for accuracy and error bounds. Model improvement and validation 
will include conducting physical experiments, as well as computational 
exercises, to ensure the accuracy, stability, and precision of these 
computer models; expansion of the types of aircraft for which these 
models can be applied, including new composite-based structures; and 
uncertainty quantification. A further goal is to develop fast running 
models for use in large-scale assessments and rapid turnaround 
estimates of aircraft vulnerability.
    As you point out, the DOE National Laboratories are uniquely 
positioned to apply the best computing and visualization capabilities 
on the planet to this problem. It is also important to note that it is 
not just the computing hardware--the National Laboratories bring world-
class multidisciplinary teams of scientists, engineers, computer 
scientists, operations analysts, and mathematicians together in the 
same room to bring innovative and creative approaches to these 
problems, leveraging the hardware and the significant software 
investments in, e.g., structural analysis and visualization. You can 
only find this at the DOE National Laboratories.
                   Answers to Post-Hearing Questions
Responses by Dr. Bert Coursey, Program Manager, Coordinated National 
        Security Standards Program, National Institute of Standards And 
        Technology 

Questions submitted by Chairman David Wu

Q1.  DHS S&T uses the Capstone IPT process to set priorities for short 
and mid-term research programs, but how are priorities set for long 
term basic research and research programs at University Centers of 
Excellence, DOE National Labs and NIST? How are these priorities 
coordinated?

A1. The National Institute of Standards and Technology (NIST) sets 
priorities for investments in long-term research programs in 
measurements and standards to support explosives countermeasures in 
consideration of White House level planning, investments from other 
Federal agencies and synergy of the programs with other NIST laboratory 
directions. White House level planning includes the National Science & 
Technology Council (NSTC) report Research Challenges in Combating 
Terrorist Use of Explosives in the United States (December 2008), as 
well as Homeland Security Presidential Directive 19 (HSPD-19), February 
2007. NIST also has long-term research projects funded by the DHS S&T 
in the areas of trace particle behavior and transport, and frequency 
comb spectroscopy. This science will inform the next generation of 
trace explosives detectors. Finally, NIST looks at the synergy of other 
agency investments in understanding particle behavior and in limits of 
explosives detection with related NIST investments in fundamental 
measurements and standards for diagnostic health care, pharmaceuticals 
and environmental measurements. NIST priorities for long-term research 
are coordinated with DHS S&T and the interagency Technical Support 
Working Group (TSWG).

NOTE: This response is for NIST only, not DOE, DHS or Universities.
                   Answers to Post-Hearing Questions
Responses by Dr. Sandra L. Hyland, Senior Principal Engineer, BAE 
        Systems

Questions submitted by Chairman David Wu

Q1.  DHS S&T uses the Capstone IPT process to set the priorities for 
short and midterm research programs, but how are priorities set for 
long-term basic research and research programs at University Centers of 
Excellence, DOE National Labs, and NIST? How are these priorities 
coordinated?

Answer to question about funding priorities

A1. I have no expertise in the area of determining basic research 
priorities and coordination and prefer not to speculate in this area. 
There are some groups within the National Academies, such as the 
Laboratory Assessment Board or the Standing Committee for Technology 
Insight-Gauge, Evaluate & Review (which is specifically focused on the 
intelligence community's needs), that could be a good resource for 
comparing the various approaches to research and development funding.

Follow up to discussion during the hearing

    In the 1996 report, the NRC committee specifically recommended 
against polling the travelling public about potential screening 
technologies without being very specific about the potential 
implementation within the security system. For example, asking 
travelers if they object to the invasion of privacy posed by the full-
body scanners is unlikely to produce information that would be useful 
to predict the actual response to these systems being implemented in 
the airport. Gathering information about future travelling behavior is 
more likely to be productive if very specific scenarios are posed, and 
if those being polled are chosen to represent a wide variety of users 
including passengers, operators, airport managers, airport security 
personnel, etc. Sociologists and others whose expertise is predicting 
how people will behave in given situations should be involved in how to 
present the information, what questions are likely to produce actual 
predictive responses, and how much detail is needed to describe a 
specific implementation scenario. Test beds inserted into actual 
stream-of-commerce passenger flow, such as the one set up at Gatwick 
Airport, will be invaluable in getting accurate and predictive feedback 
on specific implementation of new screening technology.



</pre></body></html>
